<html>
<title> - PREPARING FOR THE FUTURE: AN ASSESSMENT OF EMERGING CYBER THREATS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
   PREPARING FOR THE FUTURE: AN ASSESSMENT OF EMERGING CYBER THREATS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                       PROTECTION, AND INNOVATION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2019

                               __________

                           Serial No. 116-44

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
               U.S. GOVERNMENT PUBLISHING OFFICE 
 40-460 PDF            WASHINGTON : 2020 
                                
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND 
                               INNOVATION

                Cedric L. Richmond, Louisiana, Chairman
Sheila Jackson Lee, Texas            John Katko, New York, Ranking 
James R. Langevin, Rhode Island          Member
Kathleen M. Rice, New York           Mark Walker, North Carolina
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
               Moira Bergin, Subcommittee Staff Director
           Sarah Moxley, Minority Subcommittee Staff Director
           
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                               Witnesses

Mr. Ken Durbin, CISSP, Senior Strategist, Symantec Corporation:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Mr. Robert K. Knake, Senior Research Scientist, Global Resilience 
  Institute, Northeastern University, Senior Fellow, The Council 
  on Foreign Relations:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Ms. Niloofar Razi Howe, Senior Fellow, Cybersecurity Initiative, 
  New America:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Ben Buchanan, PhD, Senior Faculty Fellow, Center for Security 
  and Emerging Technology, Mortara Center, Assistant Teaching 
  Professor, Georgetown University:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30


   PREPARING FOR THE FUTURE: AN ASSESSMENT OF EMERGING CYBER THREATS

                              ----------                              


                       Tuesday, October 22, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Cybersecurity, 
                                 Infrastructure Protection,
                                            and Innovation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:11 p.m., in 
room 310, Cannon House Office Building, Hon. Cedric L. Richmond 
[Chairman of the subcommittee] presiding.
    Present: Representatives Richmond, Jackson Lee, Langevin, 
Rice, Slotkin, Thompson; Katko, Walker, and Taylor.
    Also present: Representative Joyce.
    Mr. Richmond. The Subcommittee on Cybersecurity, 
Infrastructure Protection, and Innovation will come to order.
    The subcommittee is meeting today to receive testimony on 
preparing for the future, an assessment of emerging cyber 
threats.
    Mr. Katko. Mr. Chairman, I ask unanimous consent that our 
colleague from Pennsylvania, Mr. Joyce, be able to fully 
participate in today's hearing.
    Mr. Richmond. Hearing no objection, so ordered.
    Good afternoon. I want to welcome the witnesses to today's 
hearing on how we seek to balance the benefits of technical 
innovation with the security vulnerabilities that it may bring.
    The rapid proliferation of new technology is changing the 
world. Advancements in artificial intelligence, AI, and quantum 
computing will equip us with new tools to defend ourselves and 
break down barriers to new research that could improve the way 
we live and save lives.
    Unfortunately, one man's tool is another man's weapon. 
Sophisticated nation-state actors like Russia, China, Iran, and 
North Korea have already weaponized new technologies to disrupt 
our democracy, compromise our National security, and undermine 
our economy. As technology improves, so will their ability to 
use it against us.
    I am particularly concerned about the impact of new 
technologies on our elections. In the lead-up to the 2016 
Presidential election, Russia mounted an unprecedented 
influence and disinformation campaign. They use bots to 
automatically tweet divisive messages from fake accounts. As we 
move into the heart of the 2020 election cycle, we must be 
prepared for our adversaries to use AI-generated deepfakes to 
create a false history, sow discord, and inject skepticism into 
our National elections.
    To start, on-line platforms must learn to identify 
deepfakes and publish policies about how they will handle them. 
At the same time, we need to educate the public to ensure that 
they are informed consumers of information.
    More broadly, ensuring that emerging technologies are 
developed and deployed responsibly requires U.S. leadership, 
and I am concerned that we are not demonstrating that now. For 
years the Federal Government has cut research and development 
dollars to meet budget caps, and I am worried that countries 
like China are outpacing our investment. Our failure to put 
money into R&D may cost us not only our strategic advantage as 
the world's leader in technology, but the global influence that 
stems from it.
    What is most alarming, however, is the lack of attention 
that this administration is giving to this important National 
security issue. Despite the fact that our intelligence agencies 
have confirmed that nation-state actors are utilizing their 
emerging technology for their strategic advantage, the 
administration annually slashes R&D funding under the false 
premise that the private sector will make up the difference. 
Maintaining U.S. leadership in this space will require 
direction, coordination, and money from the Federal Government.
    Before I close, I want to address a final issue that is 
causing concern in my district and others like it: How AI and 
automation will affect the work force. Automation has already 
decreased availability of jobs in the labor market, and I worry 
about the National and economic security consequences that 
could result if we do not adequately plan for this transition. 
I look forward to our witnesses' thoughts on this important 
issue today.
    The success of our Nation and economic security rests on 
whether the Federal Government can effectively partner with its 
allies, State and local partners, and the private sector to 
develop policies that both incentivize investment in emerging 
technology, and manage the risk associated with it when it 
falls into the hands of our adversaries.
    I look forward to understanding how this committee can 
assist in the development of safe, secure, and responsible 
technologies.
    [The statement of Chairman Richmond follows:]
                 Statement of Chairman Cedric Richmond
                            October 22, 2019
    The rapid proliferation of new technology is changing the world. 
Advancements in artificial intelligence (AI) and quantum computing will 
equip us with new tools to defend ourselves and break down barriers to 
new research that could improve the way we live and save lives. 
Unfortunately, one man's tool is another man's weapon. Sophisticated 
nation-state actors like Russia, China, Iran, and North Korea have 
already weaponized new technologies to disrupt our democracy, 
compromise our National security, and undermine our economy. As 
technology improves, so will their ability to use it against us.
    I am particularly concerned about the impact of new technologies on 
our elections. In the lead-up to the 2016 Presidential election, Russia 
mounted an unprecedented influence and disinformation campaign that 
used bots to automatically tweet divisive messages from fake accounts. 
As we move into the heart of the 2020 election cycle, we must be 
prepared for our adversaries to use AI-generated ``deepfakes'' to 
create a false history, sow discord, and inject skepticism into our 
National elections. To start, on-line platforms must learn to identify 
``deepfakes'' and publish policies about how they will handle them. At 
the same time, we need to educate the public to ensure that they are 
informed consumers of information. More broadly, ensuring that emerging 
technologies are developed and deployed responsibly requires U.S. 
leadership, and I am concerned that we are not demonstrating that now.
    For years, the Federal Government has cut research and development 
dollars to meet budget caps, and I am worried that countries like China 
are outpacing our investment. Our failure to put money into R&D may 
cost us not only our strategic advantage as the world's leader in 
technology development, but the global influence that stems from it. 
What is most alarming, however, is the lack of attention that this 
administration is giving to this important National security issue. 
Despite the fact that our intelligence agencies have confirmed that 
nation-state actors are utilizing the emerging technology for their 
strategic advantage, the administration annually slashes R&D funding 
under the false promise that the private sector will make up the 
difference. Maintaining U.S. leadership in this space will require 
direction, coordination, and money from the Federal Government. Before 
I close, I want to address a final issue that is causing concern in my 
district and others like it: How AI and automation will affect the 
workforce. Automation has already decreased the availability of jobs in 
the labor market, and I worry about the National and economic security 
consequences that could result if we do not adequately plan for this 
transition. I look forward to our witness' thoughts on this important 
issue today.
    The success of our National and economic security rests on whether 
the Federal Government can effectively partner with its allies, State 
and local partners, and the private sector to develop policies that 
both incentivize investment in emerging technology and manage the risks 
associated with it when it falls into the hands of our adversaries. I 
look forward to understanding how this committee can assist in the 
development of safe, secure, and responsible technologies.

    Mr. Richmond. I will now recognize the Ranking Member of 
the subcommittee, the gentleman from New York, Mr. Katko, for 
an opening statement.
    Mr. Katko. Thank you, Mr. Chairman, and thank you for 
having me here today, and thank you for the witnesses. I 
appreciate you coming today.
    During my time as a Federal prosecutor over 2 decades I saw 
first-hand how criminals evolved and adapted to changes. As I 
have learned about the cyber landscape as Ranking Member of 
this subcommittee, I have been amazed at the number and 
diversity of the cyber threats we face today. These threats are 
always evolving and adapting to new obstacles, new protections, 
new tactics, and new technologies.
    All levels of government, Federal, State and local, as well 
as our allies around the globe, the private sector, academia, 
and nonprofits must work together in order to protect against 
emerging cyber threats.
    Today's technologies have a number of vulnerabilities that 
must be protected from bad actors. In the first 6 months of 
this year more than 4 million records have been exposed due to 
data breaches. Ransomware attacks have doubled in 2019 in my 
district. Syracuse School District, for example, and the 
Onondaga County Library System both suffered ransomware attacks 
from unknown threat actors in the last month.
    More citizens than ever are falling victim to phishing 
attacks and malware. Cyber crime made up 61 percent of the 
attacks that cybersecurity firm CrowdStrike saw between January 
and June of this year. These are just the attacks and 
statistics that we are aware of. Many experts believe incidents 
to be vastly under-reported.
    These threats are persistent, complex, and on the rise. 
Cybersecurity must constantly evolve in order to provide 
protection. As evidenced by the number of incidents this year 
alone, this is a difficult endeavor that cannot be done without 
help. As I heard from my constituents in my district, companies 
and local government entities need assistance and guidance to 
identify, protect against, and recover from certain current 
cyber threats.
    These are just the threats we see with our current 
technology. Our cyber landscape is becoming increasingly 
sophisticated, and new innovations are being introduced every 
day. These advances have put cybersecurity out of reach for 
even more small, medium, and large businesses, as well as State 
and local governments who simply cannot afford it.
    It is estimated that 22 million internet of things devices 
will be on-line by 2025. 5G deployment is just around the 
corner. Artificial intelligence and machine learning, while 
making impacts today, are projected to have even more of an 
enormous effect on our lives in the years ahead. Quantum 
computing, which is a huge concern, is on the horizon. These 
emerging technologies will undoubtedly present new and evolving 
cyber threats. While we are staying vigilant and working to 
protect against current hazards, we must also be preparing for 
our future ones.
    Our first step is to better understand these new threats, 
and this hearing is a very good start.
    I am also working to educate my colleagues on the 
challenges and opportunities of the internet of things. I am 
the co-chair of the Internet of Things Caucus, and have spent 
time learning from Syracuse University about the quantum 
research they are working on in partnership with the Air Force 
Research Lab. I will do more to seek out opportunities to 
improve our cybersecurity against current and emerging threats.
    I want to thank the Chairman for holding this important 
hearing today, and to our witnesses here to help us understand 
the emerging threat landscape.
    In closing, I would like to note that I view the cyber 
advancements much differently than I view other products in our 
commodity market. A lot of products, like in the automobile 
arena, they consider the safety aspects along with emerging 
technology in the cars. They are--they don't always do that 
with cyber technology, and we are constantly playing catch up. 
That is why it is really important that the Chairman and myself 
and others on this committee work diligently to get the 
information we need to try and catch up to the advancements in 
technology, which always seem a couple of steps ahead.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
                             Oct. 22, 2019
    During my time as a Federal prosecutor, I saw first-hand how 
criminals evolved and adapted to changes. As I have learned about the 
cyber landscape as Ranking Member of this subcommittee, I have been 
amazed at the number and diversity of the cyber threats we face. These 
threats are always evolving and adapting to new obstacles, new 
protections, new tactics, and new technologies. All levels of 
Government--Federal, State, and local, as well as, our allies around 
the globe--the private sector, academia, and non-profits must work 
together in order to protect against emerging cyber threats.
    Today's technologies have a number of vulnerabilities that must be 
protected from bad actors. In the first 6 months of this year, more 
than 4 million records have been exposed due to data breaches. 
Ransomware attacks have doubled in 2019--in my district, Syracuse City 
School District and the Onondaga County Library System both suffered 
ransomware attacks from unknown threat actors last month. More citizens 
than ever are falling victim to phishing attacks and malware. Cyber 
crime made up 61 percent of the attacks that cybersecurity firm, 
Crowdstrike, saw between January and June of this year. These are just 
the attacks and statistics that we are aware of; many experts believe 
incidents to be under-reported.
    These threats are persistent, complex and on the rise, and 
cybersecurity must constantly evolve in order to provide protection. As 
evidenced by the number of incidents in this year alone, this is a 
difficult endeavor that cannot be done without help. As I heard from 
constituents in my district, companies and the local government 
entities need assistance and guidance to identify, protect against, and 
recover from current cyber threats.
    And these are just the threats we see with our current technology. 
Our cyber landscape is becoming increasingly sophisticated and new 
innovations are being introduced every day. These advances could put 
cybersecurity out of reach for even more small, medium, and large 
businesses as well as State and local governments.
    It is estimated that 22 million internet of things devices will be 
on-line by 2025. 5G deployment is just around the corner. Artificial 
intelligence and machine learning, while making impacts today, is 
projected to have even more of an enormous effect on our lives in the 
years ahead. Quantum computing is on the horizon.
    These emerging technologies will undoubtedly present new and 
evolving cyber threats. While we are staying vigilant and working to 
protect against current hazards, we must also be preparing for future 
ones. Our first step is to better understand these new threats and this 
hearing is a good start. I am also working to educate my colleagues on 
the challenges and opportunities of the internet of things and the co-
chair of the IOT Caucus and have spent time learning from Syracuse 
University about the quantum research they are working on in 
partnership with the Air Force Research Lab. And I will do more to seek 
out opportunities to improve our cybersecurity against current and 
emerging threats.
    I thank the Chairman for holding this important hearing today and 
to our witnesses here to help us understand the emerging threat 
landscape. I look forward to our discussion and yield back.

    Mr. Katko. So with that, I yield back, Mr. Chairman.
    Mr. Richmond. The gentleman yields back. I now recognize 
the Chairman of the full committee, the gentleman from 
Mississippi, Mr. Thompson, for an opening statement.
    Mr. Thompson. Thank you very much. Good afternoon. I would 
like to thank Chairman Richmond for holding today's hearing on 
emerging cyber threats.
    I have served on the Homeland Security Committee since its 
inception. Over that period of time I have watched the tactics 
our adversaries use against us evolve, and the threat landscape 
grow.
    As new network devices and information technologies enter 
the marketplace, many become so mesmerized by their potential 
for good that we fail to appreciate and plan for the security 
consequences. Although I am encouraged that we are having more 
conversations about the nexus between technology and security 
today, there is still much to be done. So I commend Chairman 
Richmond for holding today's hearing.
    When this committee was established a decade-and-a-half ago 
we focused our efforts on defending against physical attacks 
committed by terrorists who would readily claim responsibility. 
Now we are faced with cyber threats from state and non-state 
actors who use cyber tools to carry out attacks in secret, blur 
attribution, and complicate our ability to impose consequences.
    As technology continues to evolve, so too will the tools of 
our adversaries. Last December DHS, DoD, the State Department, 
and the Office of the Director of National Intelligence 
identified internet of things devices, artificial intelligence, 
and quantum technology as emerging dual-use technologies that 
pose a threat to our National security.
    A month later, then-director of national intelligence, Dan 
Coats, warned that our adversaries and strategic competitors 
will increasingly use cyber capabilities, including cyber 
espionage, attacks, and influence to seek political, economic, 
and military advantage over the United States and its allies 
and partners.
    Unfortunately, much of what DNI warned us about is, in 
fact, already happening. We know that Russia has relied on the 
cyber capabilities to carry out influence campaigns designed to 
divide Americans and swing elections. Efforts to manipulate 
Americans on social media platforms are wide-spread, but 
technologically simple.
    I worry about influence campaigns of the future, where 
Russia uses AI to create deepfakes that make it nearly 
impossible to discern fact from fiction. We know that China has 
engaged in intelligence gathering and economic espionage, and 
has successfully breached OPM, Navy contractors, and non-
governmental entities, from hotels to research institutions. We 
also know that China is investing heavily in developing quantum 
computing capabilities, which could undermine the security 
value of encryption within the next decade.
    Over the past year the Department of Justice has 
indicated--indicted 2 Iranians for their role in the ransomware 
attack against the city of Atlanta. Microsoft recently revealed 
that Iran had attempted to breach a Presidential campaign. 
According to the U.N. Security Council, North Korea has used 
its cyber capabilities to evade sanctions, stealing $670 
million in various foreign and cryptocurrencies between 2015 
and 2018.
    The momentum Russia, China, Iran, and North Korea have 
demonstrated related to their use of cyber tools shows no sign 
of slowing. We must prepare ourselves to harness the security, 
economic, and health care benefits of emerging technologies 
like AI and quantum computing will yield, while defending 
ourselves against adversaries who will use technology against 
us.
    But the Government cannot do it alone. The private sector 
is a critical partner in this effort. I am eager to hear from 
our witnesses how the Federal Government can ensure the 
responsible deployment of emerging technologies.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            October 22, 2019
    I'd like to thank Chairman Richmond for holding today's hearing on 
emerging cyber threats. I have served on the Homeland Security 
Committee since its inception. Over that period of time, I have watched 
the tactics our adversaries use against us evolve and the threat 
landscape grow. As new networked devices and information technologies 
entered the market place, many became so mesmerized by their potential 
for good that we failed to appreciate and plan for the security 
consequences. Although I am encouraged that we are having more 
conversations about the nexus between technology and security today, 
there is still much to be done. So I commend Chairman Richmond for 
holding today's hearing. When this committee was established a decade-
and-a-half ago, we once focused our efforts on defending against 
physical attacks committed by terrorists who would readily claim 
responsibility. Now, we are faced with cyber threats from state and 
non-state actors who use cyber tools to carry out attacks in secret, 
blur attribution, and complicate our ability to impose consequences. As 
technology continues to evolve, so too will the tools of our 
adversaries.
    Last December, DHS, DoD, the State Department, and the Office of 
the Director of National Intelligence identified internet of things 
(IOT) devices, artificial intelligence (AI), and quantum technologies 
as emerging, dual-use technologies that pose a threat to our National 
security. A month later, then-director of national intelligence Dan 
Coats warned that our ``adversaries and strategic competitors will 
increasingly use cyber capabilities--including cyber espionage, attack, 
and influence--to seek political, economic, and military advantage over 
the United States and its allies and partners.'' Unfortunately, much of 
what DNI's warning about is in fact already happening.
    We know that Russia has relied on its cyber capabilities to carry 
out influence campaigns designed to divide Americans and swing 
elections. Its efforts to manipulate Americans on social media 
platforms were wide-spread, but technologically simple. I worry about 
the influence campaign of the future, where Russia uses AI to create 
``deepfakes'' that make it nearly impossible to discern fact from 
fiction. We know that China has engaged in intelligence-gathering and 
economic espionage, and has successfully breached OPM, navy 
contractors, and non-government entities from hotels to research 
institutions. We also know that China is investing heavily in 
developing quantum computing capabilities, which could undermine the 
security value of encryption within the next decade.
    Over the past year, the Department of Justice has indicted 2 
Iranians for their role in the ransomware attack against the city of 
Atlanta, and Microsoft recently revealed that Iran had attempted to 
breach a Presidential campaign. And according to the U.N. Security 
Council, North Korea has used its cyber capabilities to evade 
sanctions, stealing $670 million in various foreign and crypto-
currencies between 2015 and 2018. The momentum Russia, China, Iran, and 
North Korea have demonstrated related to their use of cyber tools show 
no signs of slowing. We must prepare ourselves to harness the security, 
economic, and health care benefits of emerging technologies like AI and 
quantum computing will yield while defending ourselves against 
adversaries who would use technology against us. But the Government 
cannot do it alone. The private sector is a critical partner in this 
effort. I am eager to hear from our witnesses how the Federal 
Government can ensure the responsible deployment of emerging 
technologies.

    Mr. Thompson. With that I thank the witnesses for being 
here today, and I look forward to the testimony, and yield back 
the balance of my time.
    Mr. Richmond. Thank you, Mr. Chairman. I want to welcome 
our panel of witnesses.
    First I am pleased to welcome Mr. Ken Durbin, senior 
strategist for global government affairs at Symantec, where he 
has provided solutions to the public sector for over 30 years.
    Next we have Mr. Robert Knake, who is a senior fellow at 
the Council of Foreign Relations and a senior research 
scientist at Northwestern University's Global Resilience 
Institute. Mr. Knake served as director for cybersecurity 
policy at the National Security Council from 2011 to 2015.
    Next Ms.--Niloofar, is that right?--Razi--which is the easy 
part, Howe is a fellow at New America's Cyber Security 
Initiative. Ms. Howe has been an investor, executive, and 
entrepreneur in the technology industry for the past 25 years, 
with a focus on cybersecurity for the past 10. Most recently 
Ms. Howe served as chief strategy officer and senior vice 
president of strategy and operations at RSA, a global 
cybersecurity company.
    Finally, Dr. Ben Buchanan is a senior faculty fellow at 
Georgetown's Center for Security and Emerging Technology. He 
has a--he has written journal articles and peer-reviewed papers 
on artificial intelligence, attributing cyber attacks, 
deterrence in cyber operations, cryptography, election 
cybersecurity, and the spread of malicious code between nations 
and non-state actors.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Mr. Durbin.

  STATEMENT OF KEN DURBIN, CISSP, SENIOR STRATEGIST, SYMANTEC 
                          CORPORATION

    Mr. Durbin. Chairman Richmond, Chairman Thompson, Ranking 
Member Katko, thank you for the opportunity to testify.
    Assessing emerging threats is important, but we can't 
forget about traditional threats that have been re-purposed; I 
will address both in my testimony. I will start with a couple 
key findings from our 2019 Internet Security Threat Report.
    Email has been a traditional threat vector cyber criminals 
constantly re-purpose. The latest exploit is the use of 
Microsoft Office attachments to deliver malicious payloads. 
Forty-eight percent of malicious email attachments were, in 
fact, Microsoft Office documents.
    Attacks on endpoints from the web continue to grow. We saw 
a 56 percent increase in web attacks in 2018. By the end of 
2018 Symantec blocked more than 1.3 million unique web attacks 
on endpoints every day.
    As this committee well knows, supply chain attacks remain a 
persistent and serious threat. There was a 78 percent increase 
in supply chain attacks which exploit third-party services and 
software to compromise a target.
    Deepfakes, on the other hand, are an emerging threat. 
Deepfake are audios or videos created by artificial 
intelligence systems and used to make the public believe they 
are authentic. Deepfakes are new, and not typically viewed as a 
threat to enterprise security. Fake videos, photos, or audio 
recordings represent a serious risk to the enterprise, since, 
to create convincing deepfakes, you simply need the internet, a 
gaming PC, and the right software. A deepfake of a CEO 
announcing a layoff or used to order an employee to transfer 
funds or intellectual property could hurt their reputation and 
their stock price. Until we can identify or block deepfakes, 
organizations will be best served implementing rapid response 
plans that can be executed as soon as a deepfake is identified.
    Twitter bots have emerged as a threat hiding in plain 
sight. Symantec analyzed content released by Twitter originally 
posted on their service by the Russian-based Internet Research 
Agency. The IRA content was used as part of a Twitter bot 
campaign directed against the 2016 U.S. elections. The 
operation was carefully planned, with accounts often registered 
months before they were used. The data set consisted of 3,836 
Twitter accounts and nearly 10 million tweets. They attracted 
almost 6.4 million followers and they, in turn, followed 3.2 
million accounts. A core group of 123 main accounts was used to 
push out new content, while a larger pool of auxiliary accounts 
amplify messages pushed out by the main accounts. One main 
account only tweeted 10,794 times, but was retweeted over 6 
million times.
    Targeted ransomware has been re-purposed to focus on the 
enterprise. During 2018 attacks against organizations rose by 
12 percent, but represented 81 percent of all infections that 
year. State and local governments were hit hard. The city of 
Atlanta was attacked and chose not to pay the ransom. Clean-up 
is expected to exceed $10 million. The Colorado Department of 
Transportation spent $1.5 million to clean up after their 
attack. Two Florida cities took another direction and paid the 
ransom, which totaled $1 million between them.
    Targeted attacks have tools to infect a large number of 
computers simultaneously, maximizing the number of assets to 
improve the chances the victim will pay the ransom.
    Mobile is an example of a kind of self-inflicted threat. 
Mobile devices are susceptible to unwanted cyber threats and 
threats we allow via app permissions. We looked at apps on both 
the Google and Android platforms and found both requested 
personal information and access to similar device functions. 
Many of these requests were reasonable, but many were excessive 
and questionable.
    We looked at a flashlight app which has over 10 million 
installs that wanted access to the user's location, contacts, 
and permission to make calls. It is difficult to imagine why a 
flashlight app needs your contacts, call your friends, or know 
your exact location. Users are opening themselves up to 
potential threats, since they grant permission without 
understanding what the app developer will do with that data.
    Finally, stalkerware is a type of malware that is secretly 
loaded on an unsuspecting victim computing device, giving 
almost total control of the device to an ex-spouse, ex-
boyfriend, or other stalker, who would then know the victim's 
exact location, be able to read their emails and texts, and 
even turn on their microphone or camera.
    So why is stalkerware commercially available? Publishers of 
stalkerware typically advertise their product as parental 
monitoring software to keep kids safe. This can certainly be 
true when it is used appropriately by a responsible parent. 
However, the features built into some of these apps give more 
control than parents would need, which make them ripe for 
abuse.
    In closing, emerging threats that try to influence beliefs 
or drive behavior need to be assessed along with the re-purpose 
traditional threats. The focus of this committee is vital for 
our Nation to understand these threats and ensure resources are 
allocated to defend against them.
    Thank you for the opportunity to testify, and I would be 
happy to take any questions you may have.
    [The prepared statement of Mr. Durbin follows:]
                    Prepared Statement of Ken Durbin
                            October 22, 2019
    Chairman Richmond, Ranking Member Katko, my name is Ken Durbin, 
CISSP, and I am a senior strategist for Symantec Global Government 
Affairs and Cybersecurity. I have been providing solutions to the 
public sector for over 30 years. My focus on compliance and risk 
management (CRM) and its application in both the public and private 
sector has allowed me to gain insights into the challenge of balancing 
compliance with the implementation of Cybersecurity Solutions. 
Additionally, I focus on the standards, mandates, and best practices 
from NIST, OMB, DHS, etc. and their application to CRM. I spend a 
significant amount of my time on the NIST Cybersecurity Framework 
(CSF)\1\ and the emerging privacy framework, the DHS Continuous 
Diagnostics and Mitigation (CDM) Program and the EU Global Data 
Protection Regulation (GDPR.)
---------------------------------------------------------------------------
    \1\ NIST Cybersecurity Framework (CSF): Provides guidance to 
private companies on how best to prevent, detect, and respond to cyber 
attacks.
---------------------------------------------------------------------------
    Symantec Corporation is the world's leading cybersecurity company, 
allowing organizations, governments, and people to secure their most 
important data wherever it lives. Organizations across the world look 
to Symantec for strategic, integrated solutions to defend against 
sophisticated attacks across endpoints, cloud, and infrastructure. 
Likewise, a global community of more than 50 million people and 
families rely on Symantec's Norton and LifeLock product suites to help 
protect their digital lives at home and across their devices. Symantec 
operates one of the world's largest civilian cyber intelligence 
networks, allowing it to see and protect against the most advanced 
threats. In my testimony I will discuss the current Threat Landscape, 
to include:
  <bullet> Key findings from the 2019 Symantec Internet Security Threat 
        Report (ISTR);
  <bullet> Mobile security privacy;
  <bullet> Deepfakes risk to the enterprise;
  <bullet> Twitterbots in the 2016 election;
  <bullet> Targeted ransomware; and
  <bullet> Stalkerware.
                          the threat landscape
    A review of the current threat landscape shows there are 
challenging new attacks and threats that need to be addressed. However, 
it also shows that it would not be wise to ignore the traditional 
threats we have been dealing with for years. Bad actors are finding new 
ways to attack using well-established attack vectors. At the same time 
new technologies and campaigns are emerging to exert influence and 
drive behavior. I'll address both traditional and emerging threats in 
the following sections.
The Internet Security Threat Report
    The Internet Security Threat Report (ISTR)\2\ analyzes data from 
Symantec's Global Intelligence Network, the largest civilian threat 
intelligence network in the world, which records events from 123 
million attack sensors worldwide, blocks 142 million threats daily, and 
monitors threat activities in more than 157 countries. The analysis 
provides insight into a wide variety of threats and identifies trends 
that help inform the public with the goal of helping them avoid risk. 
Highlights from the ISTR include:
---------------------------------------------------------------------------
    \2\ https://www.symantec.com/security-center/threat-report.
---------------------------------------------------------------------------
  <bullet> One out of 10 URLS are malicious. That is up from one in 16 
        in 2017. Clicking on a malicious URL continues to be a widely-
        used attack vector by attackers.
  <bullet> There was a 56 percent increase in web attacks over 2017. By 
        the end of 2018, we blocked more than 1.3 million unique web 
        attacks on endpoint machines every day.
  <bullet> On average, 4,800 websites are compromised with formjacking 
        software each month.
  <bullet> Formjacking is the use of malicious JavaScript code to steal 
        payment card details and other information from payment forms 
        on the checkout web pages of eCommerce sites. We blocked 3.7 
        million formjacking attempts on endpoint devices in 2018.
  <bullet> Supply chain attacks increased 78 percent. Supply chain 
        attacks, which exploit third-party services and software to 
        compromise a final target, take many forms, including hijacking 
        software updates and injecting malicious code into legitimate 
        software.
  <bullet> Forty-eight percent of malicious email attachments were MS 
        Office documents, up from just 5 percent in 2017. Cyber crime 
        groups continued to use macros in Office files as their 
        preferred method to propagate malicious payloads in 2018, but 
        also experimented with malicious XML files and Office files 
        with Dynamic Data Exchange (DDE) payloads.
  <bullet> The number of attack groups using destructive malware rose 
        25 percent. Destructive malware is designed to inflict physical 
        damage to an organizations network or facility. While still a 
        niche area, the use of destructive malware continued to grow. 
        Eight percent of groups were known to use destructive tools, up 
        from 6 percent at the end of 2017.
Mobile Security
    The average smartphone user these days has between 60 and 90 apps 
on their device, and most of them request some sort of information 
about the user and the device. They may want to know your name, your 
email address, or your real-world address. But because smartphones are 
so powerful, they can also get quite a bit more than that, such as your 
exact location. Some apps will even request access to the device's 
camera or microphone despite having no legitimate need to use them.
    In order to find out what kind of data your apps may be looking 
for, we analyzed the top 100 free apps as listed on the Google Play 
Store and Apple App Store on May 3, 2018.\3\ For each we looked at 2 
main things: How much personal information was the user sharing with 
the app and which smartphone permissions the app accessed.
---------------------------------------------------------------------------
    \3\ https://www.symantec.com/blogs/threat-intelligence/mobile-
privacy-apps.
---------------------------------------------------------------------------
    Email addresses are the most common piece of personally 
identifiable information (PII) apps were accessing, as 48 percent of 
the iOS and 44 percent of the Android apps did so. Username was next, 
which was accessed by 33 percent of iOS and 30 percent of Android apps, 
followed by phone numbers, which were accessed by 12 percent of iOS and 
9 percent of Android apps. Finally, 4 percent of iOS and 5 percent of 
Android apps accessed the user's physical address.
    It is often reasonable and necessary to grant apps permission to 
access various features on a smartphone. For example, if you want to 
take a picture using an app, the app will need permission to use your 
device's camera. However, not all permissions are the same. We took a 
closer look at permissions that could provide access to data or 
resources that involve the user's private information or could 
potentially affect the user's stored data or the operation of other 
apps.
    Camera access was the most requested permission, with 46 percent of 
Android and 25 percent of iOS apps seeking it. That was followed by 
location tracking, which was sought by 45 percent of Android and 25 
percent of iOS apps. Twenty-five percent of Android apps requested 
permission to record audio, while 9 percent of iOS apps did so. Last, 
15 percent of Android apps sought permission to read SMS messages and 
10 percent sought access to phone call logs. Neither of these 
permissions are available in iOS.
    Apps have permissions because the user granted them by hitting an 
``I Agree'' button--usually without considering if certain permissions 
make sense, and often without pausing to consider the request at all. 
For example: The Android flashlight app ``Brightest Flashlight LED--
Super Bright Torch'', which has 10 million installs, asks for 
permissions including precise user location, access to user's contacts, 
and permission to directly call phone numbers. It is hard to imagine 
why a flashlight app has a legitimate need to copy all of your 
contacts, call all of your friends, or know exactly where you are 
located. Consumers should pause before the agree to permissions--and 
app developers should be very clear about what permissions their app 
needs and why it needs them.
Deepfakes
    ``Deepfakes'' are audio or video tracks created or altered by 
artificial intelligence (AI) systems and used to make the public 
believe they are authentic. Most of the popular examples of deepfakes 
show politicians or actors saying or doing things designed to embarrass 
or harm reputations. As a result, deepfakes are not typically viewed as 
a threat to Enterprise security.
    This is short-sighted. Enterprises do need to pay attention to 
deepfakes; fake content like videos, photos, audio recordings or emails 
represent a serious risk to individuals as well as the organization. 
The technology behind deepfakes has advanced to the point decisions 
might be made based on a deepfake, or decisions not made because an 
authentic video is thought to be a deepfake. Deepfakes are particularly 
dangerous because there is such a low barrier of entry and because they 
are difficult to detect. Until recently, altering videos was expensive 
and required significant resources, specialized equipment, and money. 
Today, if someone has access to the internet, a gaming PC and the right 
software they can produce convincing deepfakes. Specialized 
applications have reduced creating deepfakes to a point-and-click 
exercise, reducing the need for advanced skills.
    Deepfakes are created using a process based on Generative 
Adversarial Networks (GAN). Essentially, a GAN consists of 2 machine-
learning networks that work in an on-going feedback loop where 1 
network creates the deepfake and the second one tests the output. The 
networks pass the deepfake back and forth making alterations to make it 
as realistic as possible. Since the GAN is ``learning'' throughout the 
process, the deepfake becomes harder to spot with the naked eye.
    Given the low barrier of entry and that they are difficult to 
detect, Enterprises need to understand the risks deepfakes pose to 
their organization. For example: A deepfake of a CEO announcing a 
massive layoff could cause their stock price to sink. A deepfake could 
be used to order an employee to wire funds, or transfer intellectual 
property out of the company. Until a proven method to identify or block 
deepfakes is developed organizations will be best served educating 
employees about the danger of deepfakes and implementing rapid response 
plans that can be executed as soon as a deepfake is identified.
Twitterbots
    In October 2018, Twitter released a massive dataset of content 
posted on its service by the Internet Research Agency (IRA) beginning 
in May 2014. The IRA is the Russian company behind the social media 
propaganda campaign directed against the 2016 U.S. elections. Symantec 
conducted an in-depth analysis of the dataset to learn more about how 
the campaign operated.
    The dataset consisted of 3,836 Twitter accounts and nearly 10 
million tweets. These accounts amassed almost 6.4 million followers and 
followed 3.2 million accounts. The sheer volume of data was enormous, 
more than 275 GB.
    Our research \4\ led to a number of interesting findings:
---------------------------------------------------------------------------
    \4\ https://www.symantec.com/blogs/threat-intelligence/twitterbots-
propaganda-disinformation.
---------------------------------------------------------------------------
    1. The operation was carefully planned, with accounts often 
        registered months before they were used. The average time 
        between account creation and first tweet was 177 days. The 
        average length of time an account remained active was 429 days.
    2. A core group of main accounts was used to push out new content. 
        These were often ``fake news'' outlets masquerading as regional 
        news outlets or pretending to be political organizations.
    3. A much larger pool of auxiliary accounts was used to amplify 
        messages pushed out by the main accounts. These accounts 
        usually pretended to be individuals.
    4. Some operatives may have been making money on the side by using 
        monetized URL shorteners to create links. If they did monetize 
        the URLs one account in particular could have generated almost 
        $1 million.
    We divided the accounts into two main categories; main accounts and 
auxiliary accounts. Each category had different characteristics and 
played a different role. We identified 123 main accounts, each having 
at least 10,000 followers. Main accounts tended to not be followers of 
other accounts. They were primarily used to publish new tweets.
    We identified 3,713 auxiliary accounts, each having less than 
10,000 followers. Auxiliary accounts tended to be followers of 
thousands of other accounts. Their main purpose was to retweet messages 
from other accounts. Since auxiliary accounts were used to amplify 
targeted messages it makes sense they were the larger category.
    A particularly effective account in the dataset was called TEN--
GOP. Created in November 2015, the account masqueraded as a group of 
Republicans in Tennessee. It appears to have been manually operated. In 
less than 2 years TEN--GOP managed to rack up nearly 150,000 followers. 
Despite only tweeting 10,794 times, the account garnered over 6 million 
retweets. Only a small fraction (1,850) of those retweets came from 
other accounts within the dataset. In other words, almost all of its 
retweets came from accounts outside the dataset, meaning many could 
have been real Twitter users.
    The Twitterbot campaign is often referred to as the work of trolls, 
but the release of the dataset makes it obvious that it was far more 
than that--it was highly professional. It was planned months in advance 
and the operators had the resources to create and manage a vast 
disinformation network. And aside from the sheer volume of tweets 
generated over a period of years, its orchestrators developed a 
streamlined operation that automated the publication of new content and 
leveraged a network of auxiliary accounts to amplify its impact.
Targeted Ransomware
    Ransomware continues to be one of the most dangerous cyber threats 
facing any organization. The threat has changed significantly over the 
past 2 years, as criminals are increasingly targeting enterprises. 
During 2018, while the overall number of ransomware infections was down 
20 percent, attacks against organizations (as opposed to against 
individuals) rose by 12 percent. Alarmingly, Enterprises accounted for 
81 percent of all ransomware infections in 2018. Targeted attacks have 
been particularly hard on State and local government organizations. In 
March 2018 the city of Atlanta was attacked and ransomware encrypted 
servers that made over a third of the 424 city-wide services 
inaccessible. The clean-up costs for the attack are expected to run to 
over $10 million. The Colorado Department of Transportation spent $1.5 
million to clean up after they were attacked. Two Florida cities that 
were attacked took another route--they paid the ransom, which totaled 
$1 million between them.
    The number of targeted ransomware attacks has multiplied as new 
groups move into this sector. Although targeted ransomware attacks 
account for a small percentage of overall ransomware attacks, they 
present a far greater risk as a successful targeted ransomware attack 
can cripple an ill-prepared organization. These attacks also typically 
involve much higher ransom demands, ranging from $50,000 to over $1 
million.
    Targeted attacks can result in hundreds of computers encrypted, 
backups destroyed, and business-critical data removed from the 
organization. Targeted attacks can shut down an organization, leading 
to loss of business, reputational damage, and multimillion-dollar 
clean-up bills. The number of organizations affected by targeted 
ransomware attacks has grown sharply over the past 2\1/2\ years. As 
recently as January 2017, Symantec observed just 2 organizations a 
month being attacked. However, recent months have seen that figure grow 
to above 50 organizations a month.
    The SamSam ransomware group was the original targeted ransomware 
threat, but was joined in 2018 by another highly-active targeted actor 
called Ryuk. In 2019 several additional groups were linked to a series 
of highly disruptive attacks in the United States and Europe. Current 
trends indicate that targeted ransomware is attracting a high degree of 
interest among cyber criminals, with new groups appearing at an 
accelerating pace, motivated no doubt by the success of some recent 
attacks. RobbinHood is another new family, first appearing in May 2019. 
It was reportedly used in the attack against the U.S. city of Baltimore 
that shut down several services, including municipal employees' emails, 
phone lines, and on-line bill payments.
    A group known as GoGalocker has used a new breed of targeted 
ransomware that appeared in early 2019. Traditional ransomware 
attackers cast a wide net using spam campaigns to improve their chances 
of finding a victim. GoGalocker selects targets and digs in deep. The 
attackers behind GoGalocker appear to be highly skilled, capable of 
breaking into the victim's network and deploying a wide array of tools 
in order to map the network, harvest credentials, elevate privileges, 
and turn off security software before deploying the ransomware. This 
process permits the attackers to identify and access a large number of 
computers in order to later simultaneously infect them with the 
ransomware. By maximizing the number of assets, the attacker 
compromises the better the chances are the victim will pay the ransom.
Stalkerware
    Stalkerware is a type of malware that is secretly loaded on an 
unsuspecting victim computing device giving almost total control of the 
device to a bad actor. The bad actor--who can be an ex-spouse, ex-
boyfriend, or other stalker--would then know the victims exact 
location, be able to read their emails and texts, and even turn on 
their microphone or camera. Due to the control Stalkerware gives a bad 
actor, it is classified as a type of malware--malicious software 
designed to gain access to or damage your computer, often without your 
knowledge.
    Stalkerware can affect PCs, Macs, and iOS or Android devices. 
Although Windows operating systems may be more susceptible to attacks, 
attackers are becoming better at infiltrating Apple's operating systems 
as well. Stalkerware typically infects a device when the victim accepts 
a prompt or pop-up without reading it first, downloads software from an 
unreliable source, opens email attachments from unknown senders, or 
pirate media such as movies, music, or games
    So why is Stalkerware available in app stores? Publishers of 
Stalkerware typically advertise their product as parental monitoring 
software to keep kids safe, and this can certainly be true when it is 
used appropriately by a responsible parent. However, any software 
surreptitiously loaded onto a device, no matter how well-meaning is 
malicious. Additionally, the features built into some of these apps 
give more total control of a device than parents would need and make it 
ripe for abuse.
                               conclusion
    New threats are emerging every year--but that does not mean 
existing threats have gone away. We need to be vigilant in our defense 
against the traditional threats we have battled for years, while 
understanding emerging threats and planning defenses accordingly. 
Emails have been a persistent attack vector, yet attackers are finding 
new ways use the service against us. Ransomware is not new but the 
attacks are becoming more targeted and disruptive. Mobile security is a 
threat we allow by granting excessive permissions. Finally, deepfakes 
and twitterbots teach us that cyber can be utilized to influence and 
force actions from a distance. The focus of the Cybersecurity, 
Infrastructure Protection, and Innovation Committee is vital for our 
Nation to understand the current threat landscape and ensure resources 
are allocated to determine how to defend against them. Thank you for 
the opportunity to testify before this committee, and I would be happy 
to take any questions you may have.

    Mr. Richmond. Thank you, Mr. Durbin. Thank you for your 
testimony.
    I now recognize Mr. Knake to summarize his statement for 5 
minutes.

STATEMENT OF ROBERT K. KNAKE, SENIOR RESEARCH SCIENTIST, GLOBAL 
 RESILIENCE INSTITUTE, NORTHEASTERN UNIVERSITY, SENIOR FELLOW, 
                THE COUNCIL ON FOREIGN RELATIONS

    Mr. Knake. Thank you, Mr. Chairman. I want to break down my 
remarks into 3 categories.
    OK, thank you, Mr. Chairman. I want to break down my 
comments into 3 categories, what I will call the good, the bad, 
and the ugly.
    The good is that I think we are actually making progress in 
cybersecurity. Ten years ago, when I wrote my first book on 
cyber warfare, it was a dire prognosis for the patient. We 
concluded in that that the attacker had an overwhelming 
advantage, and that private companies could not possibly 
protect themselves from Russian, Chinese, or other state-based 
adversaries.
    I think the last 10 years have showed us that, in fact, 
some companies are able to manage the risk from even the most 
sophisticated adversaries, and they are able to do it day in 
and day out. In the last decade we have seen the development, 
not just of new technology, but new doctrine and new strategies 
and new tactics for defense.
    Most notably, I will call out the kill chain. Right? This 
is the basic concept that an adversary doesn't simply need to 
compromise a single host, they need to go through a series--
anywhere from 7 to 22 steps, depending on how you count--to 
achieve their objective. So, from that perspective, a defender 
only needs to detect them at one, and block them at one of 
those stages.
    This kind of thinking has allowed us to reverse the notion 
that the offense has an overwhelming advantage in this space. 
We now have tooling around that. Technology like endpoint 
detection and response, end-point protection program that can 
automatically identify malware. These technologies have really 
helped us turn a corner for the most sophisticated of cyber 
defense programs. That is the good news.
    What we need to do now, of course, is create the incentives 
and the structures and the Government enablement to drive these 
innovations down into the wider markets so that school 
districts and local governments and mom-and-pop businesses are 
able to achieve this level of cybersecurity.
    The bad news is, of course, the technology landscape, as 
you all know, is rapidly changing. This may mean that, by the 
time we get in place these secure systems, these secure 
concepts that will help protect the state of play today, the 
technical terrain is going to have changed.
    We have talked about IOT, we have talked about AI, and we 
have talked about quantum. Those, I think, are the 3 big 
changes out there. I would add, with IOT, 5G. Ubiquitous high-
speed connectivity is going to enable so many millions of 
devices to be connected.
    What we have seen so far is that, for IOT, it is not really 
so much a new technology as a trend toward cheaper computers 
and ubiquitous connectivity that is enabling us to put 
computers everywhere. What we are not doing is learning the 
lessons from the past 20 years of enterprise security and 
applying those lessons into the IOT space.
    For artificial intelligence and quantum, the only thing I 
can say is we have got to make sure that this is a race between 
the United States of America and the Chinese, not a race 
between Silicon Valley and the Chinese. The capability that 
Silicon Valley is bring to this fight is immensely important, 
but they are acting in their commercial interests, as they 
should as private businesses. We need to ensure that we have 
the funding there.
    So finally, I would say the ugly of it is Government 
intervention in this space. We have got to make sure that 
Government is helping to align market interests in favor of 
security. That is going to require doing things that we haven't 
wanted to do in this space, like regulate, in part because we 
believe that the technology is moving too fast for Government 
regulation to keep up.
    I think, though, that there is an answer here, and I think 
it is fairly simple. Instead of Government setting requirements 
that we know adversaries will target to get around, our goal 
needs to be to require outcomes. We can do this through 
insurance. We can do this through other financial incentives. 
But we have models for this in other spaces that we can apply, 
so that the goal should not be to meet a list of Government 
requirements for what security looks like, but to achieve an 
objective that we know current technology can meet, and that 
the market can reinforce companies meeting that objective.
    Thank you very much.
    [The prepared statement of Mr. Knake follows:]
                 Prepared Statement of Robert K. Knake
                       Tuesday, October 22, 2019
                              introduction
    Thank you Chairman Richmond, Ranking Member Katko, and Members of 
the committee for the opportunity to testify on this important matter. 
While other witnesses will focus on how the capabilities of specific 
threat actors may change and evolve, I would like to focus my remarks 
on how the technology landscape may change in the next 5 years and what 
that may mean for emerging cyber threats. Before I begin, let me be 
clear that the views I represent here are my own and do not represent 
my employers or any supporters of my work.
    Looking back over the past decade, there are reasons to be hopeful 
for a secure cyber future. When my co-author Richard Clarke and I wrote 
Cyber War: The Next Threat to National Security and What to Do About It 
a decade ago, we predicted a dire future in cyber space. Early trends 
then indicated to us that our adversaries would develop sophisticated 
cyber offensive capabilities and would use these capabilities to 
undermine our dominance of conventional military domains. We predicted 
correctly that North Korea would emerge, somewhat surprisingly, as a 
capable adversary in the cyber domain and highlighted China's on-going 
campaign of economic espionage on behalf of its National champion 
companies. We of course failed to predict many of the key events that 
are top of mind today like Russia's use of the internet to interfere in 
elections and sow dissent; however, in my view, our greatest error was 
our failure to see the technology trends that have allowed the 
defensive community to be able to manage the threat posed by even the 
most determined nation-state adversaries.
    In Cyber War, we concluded that private companies could not defend 
themselves against determined adversaries because cyber space as a 
domain favors the attacker. Conventional wisdom at the time was that an 
attacker had all the advantages. An attacker only needed to find one 
vulnerable system to succeed whereas the Chief Information Security 
Officer (CISO) at a large enterprise had to defend thousands or 
hundreds of thousands of systems. This asymmetry was often captured as 
the idea that ``the attacker only needs to compromise one vulnerable 
system; the defender needs to be perfect.''
    The good news is that technology trends and new doctrine for 
cybersecurity have dramatically changed the terrain of cyber space. 
Companies at the leading edge of cybersecurity have been able to manage 
the threat from even the most sophisticated actors. If these trends 
continue and if policy is put into place to correctly align incentives, 
it is possible that in 5 years we may view cybersecurity broadly as a 
manageable problem. The bad news is that emerging technologies may once 
again favor the attacker, erasing the defensive gains of the past 
decade. In my remarks below, I will review the ``good news'' of the 
last decade and how these trends can be accelerated and adoption of 
better cybersecurity practices encouraged by Congress. I then will 
discuss the ``bad news'' of how emerging technology trends like 
artificial intelligence, the internet of things and 5G, and quantum 
computing could favor the offense. I then provide some thoughts for how 
Congress can promote wider adoption of cybersecurity practices that are 
on the cutting edge today and shape the future of technology so that 
defenders are not left at a disadvantage tomorrow. Finally, I conclude 
with a brief review of the projects I am working on today that may help 
us build a more resilient cyber future.
                the good news: cybersecurity is possible
    There is an old joke in cybersecurity, attributed to Dmitri 
Alperovitch, now the Chief Technology Officer (CTO) of the 
cybersecurity firm Crowdstrike. The joke, retold in many formulations, 
is always along the lines of ``there are two types of companies: Those 
that have been hacked and know it and those that have been hacked and 
don't know it.'' That may have been true a decade ago, but today there 
are three types of companies: Those that have been hacked and know it, 
those that have been hacked and don't know it, and those that are 
actively and successfully managing the risk.
    In The Fifth Domain, Clarke and I conclude that the greatest 
advance in cybersecurity over the last decade was not a technology but 
a white paper. In ``Intelligence-Driven Security'' a group of 
researchers and practitioners at Lockheed Martin presented the 
processes they had developed for detecting and disrupting adversary 
activity along the ``Cyber Kill Chain''. Published in 2011, the paper 
showed how defenders could take the advantage away from adversaries by 
breaking down the process by which an adversary attempted to achieve an 
objective on a network and building a security program around each of 
those steps. Unlike in conventional thinking on cybersecurity where a 
network compromise is considered a failure, the Kill Chain methodology 
sees that as only one step in the chain. Before an adversary can 
exploit an initial host on a network, they must engage in 
reconnaissance of the target, weaponize what they have learned into a 
package capable of compromising the target and deliver it. After they 
have achieved the initial exploitation, they then need to gain 
administrative rights, move laterally across the network to find their 
target, and then carry out out their intended action. That action might 
be to exfiltrate data off the network or to destroy operational 
systems. Whatever their goal, it is not simply to compromise a single 
system.
    The concept of the kill chain has evolved and expanded since first 
published. MITRE Corporation has developed the ATT&CK Matrix to further 
breakdown the steps that happen after initial compromise into 22 
discrete steps. However you break down the attackers progression, the 
key takeaway should be that detecting and stopping them is possible. 
Whether the adversary needs to go through 7 steps or 22, they have to 
successfully avoid detection at each stage; defenders only need to 
detect them at any one stage. Once the adversary is on the defender's 
system, the defender should have the advantage. Gaining that advantage 
requires knowing the topology of your system better than the adversary 
and being able to detect anomalous behavior within it. This ability to 
detect and respond rapidly is what Crowdstrike and other companies have 
specialized in. Endpoint Detection and Response (EDR) has been the 
technical capability that has enabled ``threat hunting'' along the kill 
chain to occur at scale within enterprises. Managed Detection and 
Response companies are rapidly bringing these capabilities to the 
middle market.
    Beyond detection and response, newer technologies have the 
potential to remove large swaths of risk. When properly deployed and 
managed with security in mind, cloud computing, containerization, and 
software defined networking, to name just three emerging technologies, 
can provide real advantages to defenders. Virtualization can allow new 
computing environments to be spun up and down for a specific purpose so 
rapidly that gaining a foothold in one of these new environments does 
an adversary no good because the environment itself does not persist. 
These technologies can also allow for deception campaigns on a massive 
scale to create new opportunities for detection and to increase the 
work factor of adversaries.
    All this adds up to the potential to make our country, our 
companies, and ourselves resilient to cyber attacks. Through the 
adoption of secure-by-default technologies we should be able to make it 
so that almost all attacks ``bounce off'' and that we can ``bounce 
back'' when attacks do succeed. From a policy perspective, what is 
needed now are the incentives and requirements to promote the adoption 
of these techniques and the technologies beyond the small handful of 
companies that are deploying them in a holistic way today. And of 
course, this transition needs to occur at a faster rate than 
adversaries can adopt new technologies that defeat them.
        the bad news: technology changes could erase these gains
    Just as we may be turning a corner on security, the technology 
landscape may change in ways that are not evolutionary but 
revolutionary. By that I mean that the technology coming on-line is not 
about the continuation of current trends or even the acceleration of 
trends but whole new classes of technology. Artificial intelligence, 
quantum computing, and 5G and the internet of things may not 
intrinsically favor attackers over defenders but the offense is likely 
to adopt technologies that can give them an advantage faster than 
defenders and their targets are likely to adopt new technologies in 
ways that open up new swaths of vulnerabilities. I would like to now 
discuss three such technologies: (1) Artificial intelligence; (2) 5G 
and the internet of things; and (3) quantum computing.
Artificial Intelligence
    Arguably, artificial intelligence up until now has been a 
technology that has favored the defense. Many of the gains discussed 
above in the last decade are due to artificial intelligence 
applications within cybersecurity. For instance, the ability of 
advanced endpoint protection programs to identify never before seen 
malware using machine learning has made the work of adversaries much 
more difficult. The bad news is that as the state-of-the-art in 
artificial intelligence advances, attackers are likely to use it in 
ways that will upend the basis of today's security architectures.
    Deepfakes have made headlines recently in the political world. For 
public figures who have thousands of hours of voice and video 
recordings available on-line, artificial intelligence can now be used 
to piece together snippets of them talking to literally put words in 
their mouths. Deepfakes are likely to come into play heavily in the 
2020 election and defenses against them are lagging. Use of AI for 
deepfake detection made news over the summer but in this arms race, 
adversaries look to have an advantage, tweaking their tools and testing 
against deepfake detection technology until they can defeat it.
    Initially, deepfakes required large libraries of voice and video 
but as the technology improves, the amount of source data required is 
rapidly coming down. That will mean that many of the fundamental 
controls we have in place today to combat cyber crime may no longer be 
trusted. The cybersecurity community has worked hard to educate 
companies about the dangers of wire transfer fraud--to train finance 
departments to be suspicious of emails from the CEO ordering them to 
wire funds on an emergency basis, for instance. But what if, instead of 
compromising the email system, adversaries compromise voice and video 
systems, and your boss in her natural speaking voice that you hear 
everyday, calls you to confirm that she does in fact need you to wire 
those funds right now? The ability to create deepfakes from smaller and 
smaller sets of source material will make that scenario possible for 
many companies in a short period of time. That will mean that the 
ultimate root of trust--believing what we see and hear--can no longer 
be trusted.
5G and the Internet of Things
    Internet of things (IOT) technology is rapidly being distributed 
within critical infrastructure and in homes and businesses in ways that 
appear to ignore the security lessons we learned over the last 20 years 
within enterprise systems. Coding practices are poor in the space, 
firmware is difficult to update, and systems are widely exposed to the 
public internet. What's more, with the advent of 5G, massive, 
ubiquitous wireless connectivity will mean that many of these devices 
will be directly connected to the public internet with no defense-in-
depth built around them. Within the consumer market, we have seen a 
troubling trend of ``set and forget'' connected devices that, after 
being setup, are not monitored for security and do not receive updates 
to their software after problems are discovered. Unfortunately, this 
trend does not appear to be confined to the home IOT market. The same 
problem is occurring even within industrial control systems.
Quantum Computing
    Far more than these other two technological shifts, quantum 
computing is likely to up-end computer security because it will up-end 
computing. A calculation that might take a classical computer several 
centuries to complete could be done by a quantum computer in the blink 
of an eye. Experimental systems today are showing a lot of promised 
toward achieving this kind of capability. Google may already have 
achieved what is known as ``Quantum Supremacy'', using a quantum 
computer to complete a mathematical equation faster than a conventional 
system could.
    Quantum computing has the potential to be extremely disruptive to 
security, allowing encryption protocols to be defeated; whether quantum 
resistant encryption will be deployed ubiquitously and will prove to 
defeat quantum computing is an open question. The combination of 
artificial intelligence technology with quantum computing open some 
scary possibilities. More than anything else, Government needs to 
ensure that the United States is a leader, not a follower, in the 
development of quantum computing.
             the ugly: government intervention in necessary
    For most of the last 20 years, U.S. Government policy across 
administrations has largely been about getting out of the way and 
hoping that markets would solve cybersecurity problems on their own. 
Where Government has intervened, intervention has been uneven and light 
touch. Today, I believe we are starting to recognize that markets alone 
will not solve our cybersecurity dilemma. I think it is fair to 
conclude that the industries that are doing the best at actively 
managing risk in cyber space are also actively regulated: Financial 
services and the defense industrial base. Many of the approaches to 
security that are working today were pioneered in these sectors. 
Driving these innovations to other markets will require creating the 
right set of incentives and requirements. I have been pleased to see 
that more so than in any previous administration, the current 
leadership of the Department of Homeland Security has recognized that 
regulation, smartly and carefully implemented, is necessary to drive 
the level of security required for our Nation. The Department's 
cybersecurity strategy is explicit on this point. In the IOT space, DHS 
should lead efforts to regulate the security of IOT devices in the 
sectors that it regulates including chemicals, pipelines, and the 
maritime industry.
    I believe that the Internet of Things Cybersecurity Improvement Act 
would be a good first step toward improving IOT security. The act would 
set standards that sellers of IOT technology to the Federal Government 
would need to meet as well as establish disclosure requirements when 
manufacturers discover vulnerabilities. The approach uses Government's 
massive purchasing power to improve security more broadly. Companies 
that develop technologies on a ``build once, sell everywhere'' model 
will likely meet the Government's requirement for all their commercial 
offerings rather than just for those sold to Government. These 
requirements, once set, could then be adopted to regulate the use of 
IOT in critical infrastructure sectors.
    Fundamentally, however, I believe that setting requirements is 
insufficient. We need to make device makers responsible for the full 
life cycle of security by making them liable for harm caused by their 
devices. I recognize that this notion is a radical departure from how 
we have approached liability within the information technology realm 
thus far but now that these devices are making their way into National 
security systems and life safety systems, I think it is critical that 
we create incentive structures that truly value security. In the next 
section, I discuss one effort we have undertaken at the Global 
Resilience Institute to create a model for liability for cybersecurity.
    Beyond IOT, the leadership of the Cybersecurity and Infrastructure 
Security Agency (CISA) has made election security the agencies No. 1 
priority. CISA will need to build on its current efforts to counter-
election interference to play a role in combating the proliferation of 
deepfakes in the political realm and for enterprise security. Crucial 
to this effort will be building strong, operational partnerships with 
social media companies that go well beyond today's arm length 
interactions. Steps must be taken to breakdown the reluctance by 
Facebook, Google, Twitter, and other social media companies to truly 
partner with Government on this problem.
    For quantum computing and artificial intelligence, Government's 
role should be less about managing the cybersecurity implications and 
more focused on ensuring that the United States competes and wins in 
these technologies. I tend to be skeptical of analogies to arms races 
or calls for Apollo Programs or Manhattan projects, but on the basic 
science in these fields, those kinds of approaches are warranted. Both 
China and Russia have made gaining an advantage in AI a National 
priority. China has also done that on quantum. I believe our market-
based approach to technology development comes with real advantages but 
in the development of these core capabilities, I worry that a race that 
is the Chinese State vs. Silicon Valley is one that Silicon Valley will 
lose. We need a National effort to ensure that U.S. technology 
leadership continues into the next decade.
    Each of these lines of effort will take at least half a decade to 
produce meaningful results--thus it is crucial that the efforts begin 
now.
                        what we are doing at gri
    The challenges we face are large, but they are not insurmountable. 
While much work remains to be done, let me take this opportunity to 
highlight four efforts under way at the Global Resilience Institute 
that may contribute to improving our National cyber resilience over the 
next 5 years.
Creating a National Transportation Safety Board for Cyber Incidents
    Resilience is a concept that we have talked a lot about in the 
field of cybersecurity but it's a far better-developed idea in other 
fields like emergency management and psychology. One of the key 
components of resilience I have taken away from studying the concept in 
these other fields is the importance of adapting following a bad 
outcome. Learning from disasters or even from so-called ``near misses'' 
is critical to the development of resilience. To this end, as far back 
as 1991 practitioners in the field have suggested that Government 
should develop the equivalent of a National Transportation Safety Board 
(NTSB) for cybersecurity incidents, a ``Cyber NTSB''. Given that this 
idea was first suggested 3 decades ago but has yet to reach fruition, 
we are planning a workshop, sponsored by the National Science 
Foundation, to develop a prototype process for how such an organization 
would operate. We plan to hold the workshop in the spring of 2020.
Building a High Assurance Network for Collaborative Defense
    Critical to building resilience is creating a model for 
Collaborative Defense. The ``partnership'' that has been the central 
tenet of our National cybersecurity policy for 2 decades needs to 
evolve to real-time, operational collaboration. In order for that to 
happen, we need collaboration platforms where the members of this 
partnership can trust each other. Government needs to be able to trust 
that the intelligence it shares will be protected and only shared 
appropriately and securely. But private companies need the same degree 
of assurance when they share with Government and with each other. 
Today, the platforms on which we collaborate, internet-connected, 
general purpose computers, are not trustworthy. Moreover, we often do 
not know whether we can trust our partners that are using those 
computers.
    When I testified before this committee 2 years ago, I discussed 
early thinking about how to develop such a network. Today I am pleased 
to say that, working with our partners at the Advanced Cybersecurity 
Center and with a generous grant from a private foundation, we have 
developed a prototype network. This network takes advantage of the 
trends in computing that have dramatically lowered cost: Inexpensive 
computing at endpoints and cloud computing to provide immense computing 
power for analytics and other services. For about $300 a year, we can 
provide a high assurance endpoint that can only be accessed by 
specified users to connect to a secured, private network for threat 
collaboration. This model provides the basis for addressing the issue 
of trust in the users and trust in the systems by replicating at far 
lower costs many of the design criteria of the Classified networks used 
by Government today.
    In my view, the model we have developed should be adopted by the 
Department of Homeland Security to create what we have dubbed CInet for 
Critical Infrastructure Network. Using existing authorities, the 
Secretary of Homeland Security should establish a new safeguarding 
standard for Confidential information, the existing level below Secret 
in the classification schema. The standard should be built around the 
prototype we have developed which eliminates the most common paths to 
compromise (spear-phishing, credential compromise, and watering hole 
attacks) and prevents end-users from unintentionally releasing 
information through a series of technical controls. Having vetted the 
concept with a handful of critical infrastructure companies, we believe 
that this model could fit into the current operating models within 
critical infrastructure security operating sectors. We also believe 
that by harnessing current best practices in the private sector for 
continuous monitoring of insider threats, the Secretary could also 
promulgate a different standard for granting of clearances at the 
Confidential level that would be better, faster, and cheaper. Then 
would come the hard part of convincing the intelligence community to 
target collection to provide relevant threat intelligence to 
participating companies and to downgrade it to the Confidential level.
Designing a Darknet for the Electric Grid
    Many of the same technology trends that could provide attackers an 
advantage over the next 5 years can also be harnessed to increase 
security for critical infrastructure. Advances like software defined 
network (SDN), increased mobile bandwidth with 5G, and artificial 
intelligence can enable far higher degrees of assurance for critical 
infrastructure than can be attained today. This is the idea behind our 
Darknet project to create a separate network for the electric grid 
using ``dark'' or unlit fiber optic cables. GRI initially began work on 
this concept with a grant from a private foundation and is now 
partnering on it with Oak Ridge National Laboratory.
Developing an Insurance Regime that Promotes Better Security
    Cyber insurance was supposed to help drive down risk. In theory, 
the insurance sector, in exchange for providing insurance coverage, 
would require companies to prove that the risk they underwrote was 
being managed. In practice, as the recent spate of ransomware attacks 
on city governments has demonstrated, cyber insurance is simply 
transferring the risk and enriching the criminal groups behind the 
attacks. Yet, in other sectors, insurance markets have proved 
remarkable mechanisms for encouraging risk reduction. Dr. Stephen E. 
Flynn, the director of Northeastern's Global Resilience Institute, and 
I have been developing a model for insurance that would promote risk 
reduction rather than just risk transference. Dr. Flynn, a retired 
Coast Guard officer, has posited that the regime put in place under the 
Oil Pollution Act of 1990 after the Exxon. Valdez oil spill could be 
ported over for data security. In other words, we should treat data 
spills like oil spills. Under that regime, ships entering U.S. waters 
must provide proof in the form of a Certificate of Financial 
Responsibility that their owners or their guarantors in the insurance 
industry have the financial resources to cover the cost of cleaning up 
an oil spill should containment on their vessel fail. Notionally, 
owners of data could be required to take out insurance policies to 
cover the full societal cost should they fail to protect the data that 
they hold. In this thinking, Congress could establish a dollar figure 
per record and then require holders of personal data to obtain 
insurance to cover those loses. From there, market mechanisms would 
take over to determine how to price risk. This model could also be 
adapted for critical infrastructure. For instance, if natural gas 
pipeline owners had to obtain private insurance to cover the costs of a 
disruption to service caused by malicious cyber activity, markets would 
likely require a far higher degree of assurance than would be required 
through a standard regulatory model. In the coming months, we will 
engage the insurance industry on further developing this concept.

    Mr. Richmond. Thank you, Mr. Knake.
    We will now recognize Ms. Howe to--five minutes to 
summarize your statement.

 STATEMENT OF NILOOFAR RAZI HOWE, SENIOR FELLOW, CYBERSECURITY 
                    INITIATIVE, NEW AMERICA

    Ms. Howe. Chairman Richmond, Chairman Thompson, Ranking 
Member Katko, distinguished committee Members, thank you so 
much for inviting me to speak today about emerging cyber 
threats. My name is Niloofar Razi Howe, and for over 2 decades 
I have worked in the technology sector, including 
cybersecurity, as an investor, as an entrepreneur, and as an 
executive.
    When I first started working in technology we had a Utopian 
vision for the internet, and cybersecurity was a dark art that 
lived in its own silo. But as the internet has matured, and 
every aspect of our lives has become operationalized in this 
domain, the threat it represents has grown in kind and in 
effect.
    From IP theft, to cyber crime, to espionage, hostile social 
manipulations, radicalization, and cyber war, the activity and 
malfeasance that takes place affects all of society. It affects 
all of our businesses, not just critical infrastructure. It 
affects our Government's ability to provide services. Most 
importantly, it affects all of us, the people. This same 
adversary that is infiltrating our defense industrial base is 
stealing intellectual property from our companies, probing our 
infrastructure, and manipulating individuals. As Dan Geer 
famously said, ``Every sociopath is now your next door 
neighbor.''
    There are no more silos. The problem is only getting bigger 
as we embrace new waves of technology, innovations such as 
cloud computing, autonomous vehicle, small low-orbit satellites 
with advanced sensor platforms, the internet of things, drones, 
distributed ledger technology, augmented and virtual reality. 
On the horizon we see the emergence of 5G and microsensor 
proliferation, autonomous weapons for private and military use, 
quantum computing, AI, and synthetic biology, to just name a 
few.
    People and businesses will not wait for security laws and 
regulation to catch up before they embrace these technologies. 
They don't have a choice. The internet of things, which has the 
potential to change industries at their core and create over 
$11 trillion of economic gain, has security issues that are 
well understood. But these issues will not slow adoption down. 
Oddly, there is too much at stake to wait for security.
    For the first time in human history, the accelerating pace 
of technology innovation is outstripping our ability as human 
beings to adapt and adjust our policies in a time line that is 
relevant. Our adversaries have repeatedly shown that they can 
move faster than we do. They adapt and exploit technology while 
we grapple with its implications, emerging social norms, the 
uneven distribution of authorities and capabilities, and a 
political process that does not function at the speed of 
innovation.
    While we study the problem, our adversaries have 
infiltrated our systems, exploited an already polarized 
society, and undermined the very foundation of our democracy, 
the belief that there is such a thing as objective truth--
because where there is no objective truth, the biggest liar 
wins.
    We need a coordinated and collaborative whole-of-society 
approach to rise to the challenge of these emboldened 
adversaries that we are out of position to deal with. It is 
time for the United States to set a bold cyber agenda capable 
of restoring trust globally, trust in our technology, trust in 
our systems, trust in our infrastructure, and, through that, 
trust in our political system, our political process, and our 
leaders.
    To be effective our Government will have to do this in 
partnership across the Government and with private sector, and 
remove any barriers that prevent Government agencies that have 
relevant information from sharing that information and the 
context that goes with it with the entities that are most 
affected. This collaboration must extend to our cities, which 
are overwhelmed and under-resourced. Their vulnerabilities are 
a homeland security issue, especially as we look at our 
election infrastructure and ransomware.
    To have trust in our systems and infrastructure we must 
commit to regaining our innovation edge, and never again lose 
our seat at the standard-setting table. As we look to the next 
waves of technology, especially AI and quantum, falling behind 
is not about National pride. It is about National security. We 
must have a strong and consistent cyber deterrence policy, 
something only the Government can deliver on. Even the 
strongest walls will eventually succumb to a capable and 
determined adversary if there is no deterrence.
    Technology companies that are co-conspirators with our 
adversaries, that facilitate communications and propaganda 
networks enabling destructive and chaotic social manipulation 
must be regulated. To build resilience in society to social 
manipulation efforts, funding and incentivizing media literacy 
programs that teach the difference between fact, opinion, 
misdirection, and lies, as well as research into deepfakes must 
become a Homeland Security priority.
    Finally, our cybersecurity work force lacks diversity, 
lagging the technology sector by a significant margin. As we 
build programs to skill and re-skill individuals to address the 
massive skill shortage, we must put in place the right 
incentives for diversity. We need new perspectives and a new 
mental model for how we approach this threat. Our adversaries 
are agile, creative, and persistent. Our technology landscape 
is ever-shifting and our tax surface ever-expanding. Preparing 
for the future requires a new organizational and operating 
model focused on persistent cooperation and collaboration at 
cyber speed.
    Thank you.
    [The prepared statement of Ms. Howe follows:]
                Prepared Statement of Niloofar Razi Howe
                            October 22, 2019
    Chairman Richmond, Ranking Member Katko, distinguished committee 
Members, thank you for inviting me to testify on cybersecurity and 
emerging technologies. I am a senior fellow in the Cybersecurity 
Initiative at New America, a DC-based non-partisan think tank, and have 
spent close to 3 decades in the technology sector, the last 15 years 
focused on innovation in the National security and cybersecurity 
sectors. I have been a venture capitalist, an entrepreneur, and a 
corporate executive in the cybersecurity industry. I am also a member 
of a number of corporate and Government advisory boards.
                     overview: where we stand today
    We must rethink our approach to cybersecurity and cyber defense.
    We are at an inflection point as enormous technological and 
societal shifts are converging to reshape the National security 
landscape and the underpinnings of our democracy. The world is changing 
dramatically with the speed, scope, and scale of nothing we have ever 
experienced. New, highly-advanced technology is being adopted at a 
blinding pace as we digitize business, economic, defense, and social 
infrastructures. We are embracing cloud computing, autonomous vehicles, 
small low-orbit satellites with advanced sensor platforms, the internet 
of things (IOT), drones, distributed ledger technology, augmented and 
virtual reality. On the horizon we see the emergence of 5G and 
microsensor proliferation, autonomous weapons (for both military and 
private use), quantum computing, artificial intelligence, and synthetic 
biology, to name a few. It's an exciting time, but there are 
consequences. Over time almost everything that we have experienced in 
the physical world--prosperity, democracy, corruption, and warfare--
will happen digitally but with a speed and severity that we are just 
starting to comprehend. This isn't about technology alone or something 
that takes place in a dark corner of the internet somewhere. It's 
happening every moment in our offices, our cars, our family rooms, and 
in our children's pockets. Every device is a supercomputer, every 
application an attack vector, and with the internet, ``every sociopath 
is now your next door neighbor.'' This is a defining moment for our 
society as we face emboldened groups of adversaries with complex 
motivations creating new social, political, and economic challenges 
that we are out of position to deal with and almost out of time.
    Good cyber hygiene is no longer sufficient as the path forward in 
the face of increasing sophistication and the volume of threats our 
society faces. In cyber space, we are certainly in conflict, and many 
believe we are at war every day. Our adversaries are committed, well-
coordinated, persistent, and agile and they are growing in number, 
especially as we continue to digitize the world, including some of the 
world's most fragile societies. They are focused on using digital 
tactics to exploit weaknesses in our technology infrastructures and in 
our human nature. They are penetrating the seams that exist in society, 
sometimes for greed, sometimes for power, and sometimes for their 
National security imperatives.
    For decades, our Nation has played a critical global leadership 
role, providing vision, diplomacy, and stability to further our 
interests and our allies' interests, and this role is core to the trust 
and partnership required for a stable society and effective governance 
at home and around the world. We must do this in the digital world as 
well. To move us to a world of trustworthy systems and a resilient 
society, we must reclaim our technology innovation edge and set the 
standards for our digital infrastructure, which increasingly underpins 
every aspect of our existence. We must work together--individuals, 
businesses, innovators, technologists, educators, policy makers, and 
our Government and military leaders--to define this new world order in 
cyber space, or at least mitigate the risks that compound with every 
moment.
    And we must move fast.
    It took centuries for Gutenberg's invention, the printing press, to 
fundamentally change society by transforming information sharing and 
communication. The internet has transformed society on a fundamentally 
different, faster time line. Today, time is not on our side. Our 
starting point is a society that is polarized, a political system that 
is under attack, and a way of life that feels remarkably uncertain and 
fragile to many Americans. The accelerating pace of technology 
innovation for the first time in human history is outstripping our 
ability as humans to adapt, adjust our policies on a time line that is 
meaningful, and avoid the inevitable widening of the income divide in 
society that this acceleration will drive. Automation will diminish the 
importance of labor over time adding to income disparity between the 
highest earners and the low-wage labor force, reinforcing a belief for 
many in our society that the future will not be better for them or 
their children. In fact, an Oxford University study estimates that 47 
percent of total U.S. employment is at risk with automation. It is 
these seams in society that our adversaries are exploiting. They are 
using cyber space to undermine the very foundation of our democracy. 
The amplification of polarization as a result of the structure of our 
technology platforms as well as exploitation of those platforms by our 
adversaries to sow discord and chaos in society has undermined the 
effectiveness, stability, and consistency of our Government leaders and 
policy makers to address these pressing problems and to find common 
ground to rally around as a society with shared values and a shared 
vision for the future. Not surprisingly, people's faith and trust in 
their leaders--government, business, and religious leaders--continues 
to decline, especially and most alarmingly, among our youth.
    We must also move fast because our people and our businesses will 
not wait for our policy makers to catch up or security to be designed 
in before they embrace new waves of technology innovation that can 
bring with them new disruptions to society. IOT, powered by 5G 
networks, will be embraced by businesses to take advantages of the $11 
trillion of economic gain waiting to be captured. Many of these devices 
are inexpensive and rely on slim profit margins and with little to no 
regulation or liability they generally lack even the most basic 
security features we have come to expect in our connected devices. The 
result is that most IOT devices have known vulnerabilities, and they 
have already become a key component of adversary attack tactics such as 
botnets. IOT devices are proliferating in every corner of society from 
business-to-business applications in manufacturing, agriculture, health 
care, and transportation to consumer applications such as home 
automation. As a result, the vulnerabilities of these systems will also 
proliferate into every aspect of our corporate and personal lives.
    The growing market in low-orbit satellites, which gets little 
airtime from security and privacy experts, threatens to form the most 
ubiquitous surveillance platform ever built with no meaningful 
regulation to control what they are used for or by whom. These 
platforms can now be easily tasked by individuals at low cost with few 
limits, regulatory or technical, on what they can be tasked to track or 
what information they can obtain and sell. The privacy debate, which is 
a critical corollary to any discussion about cybersecurity, needs to 
take into account the implications of the 4,000 satellites that are 
being launched into orbit.
    The consequences of the digitization of fragile societies without 
thought to security ramifications poses a credible security risk both 
to those societies and possibly to the broader interconnected world. 
While over half of the world's population is on-line, many of the 
people who are now being brought on-line live in some of the world's 
most chaotic geographies. As these populations get connected via the 
internet, with few norms to truly govern their behavior or those who 
seek to destabilize and manipulate them, we must be prepared for new 
forms of malfeasance and exploitation.
    As more money pours into artificial intelligence from governments 
and technology firms, the ramifications are poised to be immense and by 
definition beyond what the human brain can comprehend. We can expect 
every industry and every aspect of society to be impacted by AI. What 
this impact will be exactly is yet to be fully understood and must be 
carefully researched and studied at every stage of development.
    Our adversaries have repeatedly shown in the past that they can 
move faster than we do in the United States. We have witnessed how 
quickly they can adapt and exploit technology while we grapple with 
emerging technologies, emerging social norms, and a political process 
that does not function at cyber speed. While we have been studying the 
problem of cybersecurity, cyber criminals have innovated and adapted. 
Cyber crime is now an industry, often protected by the governments of 
the geographies in which the cyber criminals operate, and has quickly 
grown to be the most lucrative form of crime, overshadowing the global 
illegal drug trade. The Hacker-Industrial Complex--networks of cyber 
criminal who crowdsource their tools and share their services--
continues to operate with little fear of prosecution or retribution.
    Just in the past few years, ransomware, which started out as a 
troublesome cyber crime issue for petty criminals to extract value from 
locking down access to data, has grown to represent a National and 
homeland security issue threatening the very ability of our Government 
to provide services to its citizens. This past year multiple 
jurisdictions in the United States were hit with ransomware attacks 
that crippled municipal services for prolonged periods of time. If this 
was a testing ground for a new attack vector, these incidents proved 
the vulnerability of our under-resourced State and local municipalities 
to ransomware attacks and the potentially disastrous effect on the 
communities they serve.
    Our adversaries over the past 3 years have developed a better 
understanding of, and therefore improved their use of, social 
manipulation through the internet. The growth and reliance on social 
media in the United States has enabled our adversaries, especially 
Russia and China, to engage in state on individual activities 
(manipulation) exploit vulnerabilities in our society, amplify 
polarization, radicalize our youth, and undermine any sense of 
objective truth in society. By definition, polarized societies are 
ineffective at governance as there is no common ground to build 
consensus to enact bipartisan policies, laws, and regulations that 
benefit all of society. As our ability to govern erodes, so does 
people's faith in the government leaders and their political system. A 
recent Pew Research study found that Republicans and Democrats are more 
divided along ideological lines--and partisan antipathy is deeper and 
more extensive--than at any point in the last 2 decades. The ``middle'' 
has literally disappeared.
    Underpinning all of these issues is the fact that human beings have 
a flawed operating system (OS) that relies on outdated mental models 
and cognitive biases that perhaps were useful when we lived in caves, 
surviving attacks from the wild, but do little to help us in the age of 
technology acceleration or protect us against our increasingly 
vulnerable digital existence. This flawed human OS sits at the 
intersection of our networks and devices and continues to be the weak 
link in our security programs and architecture. For example, 91 percent 
of all cyber attacks start with a phishing email, which still drives a 
better response rate than most marketing programs. This flawed human OS 
is also responsible for developing the policies, laws, and regulations 
to protect our people and our businesses from harm. The pace at which 
we have historically developed societal and Government solutions, 
adapted to new technologies, and built consensus with respect to our 
most pressing problems is too slow for the age of technology 
acceleration. It is time to change our perspective and mental model 
with respect to the time lines we must operate on, the agility with 
which we take action, and the collaborative model we employ. Our 
adversaries have.
                          where we need to go
    It is critical to put in place the right policies to address our 
most existential threats in real time. It is time for the United States 
to set a bold cyber agenda capable of restoring trust globally trust in 
our technology, trust in our systems, trust in our infrastructure, and 
through that trust in our political system, our political process, and 
our leaders. To be effective, our Government will have to do this in 
partnership across the Government and with the private sector. There is 
no time for silos or provincialism as we turn into solving an 
existential crisis for our homeland, for the people, and for the world.
    A bold new cyber agenda should include the following elements:
    1. Speed and transparency.--The U.S. Government must remove any 
        barriers that prevent Government agencies that have threat and 
        adversary information from sharing that information real-time 
        and with context with the entities that are most affected. 
        Sustained and real-time cooperation and collaboration between 
        all relevant Government agencies and the private sector is the 
        only way to rebuild trust and have a real impact on our 
        adversaries. We now have multiple agencies with unique 
        capabilities to help the private sector, including the 
        Department of Homeland Security's (DHS) Cybersecurity and 
        Infrastructure Protection Agency (CISA), United States Cyber 
        Command, the National Security Agency (NSA), the Federal Bureau 
        of Investigation (FBI), and sector-specific agencies such as 
        United States Treasury and Department and Energy (DOE) to name 
        a few. Each plays a unique role in the Nation's cybersecurity 
        mission, but only if they are working together and without 
        barriers and provincial turf wars, can we actually change the 
        landscape of cybersecurity for the country. The Russia Small 
        Group, with a clear mandate to protect the 2018 elections, was 
        a tremendous example of what happens when we bring the full 
        power of multiple Government agencies to solve a problem, hand-
        in-hand with the private sector. We need to rethink our U.S. 
        Government operating model to empower consistent and real-time 
        coordination and collaboration. Many of the authorities for 
        securing our systems were written long before there was a 
        commercial internet. We need take a holistic look at these 
        authorities through the lens of how we can most effectively 
        defend the Nation, our enterprises, and our people, with the 
        goal of enabling effective real-time consistent collaboration 
        and coordination.
    2. A relentless focus on unique value drivers and outcomes.--
        a. Government's unique role.--Government must do what only the 
            Government can do--deter malfeasance in cyber space, 
            especially by nation-state adversaries, by using our tools 
            of National power against those adversaries who are harming 
            us. The private sector cannot defend itself alone against 
            nation-state adversaries and criminals who are agile, 
            persistent, and creative. Even the strongest walls will 
            eventually succumb to a capable well-funded adversary if 
            there is no deterrence. This is uniquely the Government's 
            role. Peter Singer, a senior fellow at New America, wrote 
            last year about the collapse of cyber deterrence: ``Less 
            generously, these trends have created the opposite of 
            deterrence: Incentives. The failure to clearly respond has 
            taught not just Russia, but any other would-be attacker, 
            that such operations are relatively no pain on the cost 
            side, and all gain on the benefits side. Until this 
            calculus is altered, the United States should expect to see 
            not just Russia continue to target its citizens and 
            institutions but also other nations and non-state groups 
            looking for similar gains.'' Strong deterrence is the 
            cornerstone of any security framework and the U.S. 
            Government must take up this challenge in a decisive way, 
            with a consistent policy and framework for imposing cost on 
            those who do us harm.
        b. Private sector's unique expertise.--The private sector has 
            developed deep technical expertise in certain domains and 
            the U.S. Government must leverage the private sector better 
            and not duplicate effort in areas where private-sector 
            capabilities now surpass Government capabilities. In the 
            threat intelligence market, while U.S. intelligence 
            agencies can bring the full power of their capabilities to 
            bear on a selected basis producing unique insights into 
            foreign adversaries, the private sector has advanced 
            capabilities across a broad group of actors (foreign and 
            domestic), including insight into attacker behavior, 
            tactics techniques and procedures (TTPs), and campaigns. 
            Coordinating intelligence between private and public sector 
            to understand adversary behavior and create a coordinated 
            response to defend and defeat the adversary is critical. As 
            we build and invest in Government capabilities, we must be 
            careful not to duplicate or compete with private-sector 
            capabilities.
    3. Resilience to ransomware.--Ransomware is no longer just a cyber 
        crime issue. Ransomware at the State and municipal level is a 
        National security and homeland security issue. The single 
        purpose of Government is to provide services (including 
        protection) to its citizens. Ransomware at scale keeps that 
        from happening as we saw in Baltimore, Atlanta, and the State 
        of Texas. A ransomware attack during an election would have 
        devastating affect not just on the election itself, but on 
        people's trust in Government and the validity of our political 
        process. State and municipal administrations need Federal help 
        in the form of standards, grants, developing response plans, 
        and tax incentives to invest in infrastructure that can be 
        resilient to ransomware attacks and making Government systems 
        resilient to ransomware attacks should be a high priority for 
        Congress. It will take a coordinated effort across the whole of 
        Government, but especially DHS CISA, NIST, FBI, and NSA's 
        Cybersecurity Directorate, working hand-in-hand with State and 
        local agencies, to make progress against this real threat and 
        to stay ahead of the adversary.
    4. Support secure smart cities.--As a corollary to the ransomware 
        issue, Congress should provide more support to sub-Federal 
        entities to collaborate on smart city modernization projects. 
        Our cities do not have the expertise to defend themselves on 
        their own nor the resources to do it. As our cities become 
        smarter, they must do so with security in mind or these 
        modernizations could unwittingly enable disruption of the 
        Government's core function of providing services and security 
        to its citizens, and given the criticality of municipal 
        services, actually lead to loss of life. As Natasha Cohen and 
        Brian Nussbaum write in their New America report Smart is not 
        Enough, ``Despite increasing concern from the information 
        security community, it is far from clear that even the smartest 
        of U.S. cities are in a position to deal with the full range of 
        new risks that the technology may bring. The required 
        financial, social, security, operational, legal, and policy 
        innovations needed for smart cities to deliver on their 
        aforementioned promises do not appear to be moving at the pace 
        of innovation of the technology.''
    5. Commit to regaining our innovation edge.--Government funding of 
        innovation so that the United States can regain its edge in 
        next generation technologies will be critical to ensuring that 
        those technologies and the infrastructure that supports them is 
        secure by design. While venture capitalists invest over $5 
        billion per year conservatively in cybersecurity companies and 
        technologies, with a myriad of Innovation competitions such as 
        the RSA Conference Innovation Sandbox and Launchpad 
        Competitions held each year during the RSA Conference, which 
        now boasts close to 45,000 attendees each year, private-sector 
        investment is focused on building businesses based on proven 
        technologies and established market demand. That is not where 
        the funding gap exists. The United States must significantly 
        increase (to the tune of multiple of current Federal R&D 
        budgets) its funding in basic and applied research in the areas 
        identified by the U.S. intelligence community such as 
        artificial intelligence, 5G, and quantum computing in order to 
        meet its declared National technology priorities. It is time 
        for the Government to fund a bold innovation agenda that will 
        carry us forward to 2030 and beyond, and commit to regaining 
        our innovation edge in these critical next generation 
        technologies.
    6. Fund media literacy programs.--We live in a polarized, 
        hyperconnected world of impatient digital citizens who are 
        being continuously and creatively targeted with misinformation. 
        Developing and funding a media literacy program that teaches 
        individuals how to discern the difference between fact, 
        opinion, misdirection and lies, is critical to a well-
        functioning society and should be a homeland security priority. 
        IREX, a global development and education organization, 
        developed a Learn to Discern education program for the 
        Ukrainian Ministry of Education to combat Russian 
        disinformation campaigns. Their program integrated information 
        consumption skills into existing secondary school curricula and 
        teacher training programs at pre- and in-service teacher 
        training institutes. Working with the non-profit community as 
        well as the private sector, the U.S. Government should fund the 
        development of similar programs and curricula in the United 
        States for our elementary, middle, and high-school students as 
        well as for teacher training. With a broad media literacy 
        campaign, we can build resilience to state-sponsored 
        disinformation campaigns, help individuals recognize divisive 
        narratives and hate speech, and improve our youth's ability to 
        navigate increasingly polluted on-line spaces in a safe and 
        responsible way. As we do this, we must pay close attention to 
        misinformation innovations such as deepfakes, which present a 
        unique challenge, and fund research aimed at identifying and 
        mitigating the threat they pose to the very concept of 
        objective truth.
    7. Commit to building a diverse workforce in cybersecurity.--The 
        Government is in a unique position to contribute and commit to 
        purposefully reducing the skills shortage in the cybersecurity 
        industry. While there are some great programs in place, 
        including DHS's CyberPatriot competition, CyberCorps 
        Scholarship for Service initiative, and the April 2019 
        Executive Order focused on reskilling and upskilling Federal 
        employees, more needs to be done to recruit individuals from 
        outside our typical skill sets (IT, law enforcement, and 
        military) with a clear mandate of solving the diversity gap in 
        the industry. The cybersecurity workforce today significantly 
        lags behind the broader technology industry in terms of 
        diversity and to solve our skills shortage we need all of 
        society to be inspired by the mission to reclaim cyber space 
        for good. Elizebeth Friedman, one of the most prolific 
        codebreakers in U.S. history had no background or training in 
        mathematics or linguistics and yet was able to break any code 
        in any language during and after World War II. We need to 
        inspire a new generation of Elizebeth Friedmans to consider a 
        career in cyber. There are a number of good examples of 
        reskilling efforts in both the public and private sector. The 
        U.K. Cyber Retraining Academy is an effort by the U.K. 
        government in partnership with the SANS Institute to reskill 
        individuals with high natural aptitude, but no formal cyber 
        background, to enroll in an intensive 10-week program preparing 
        them for a career in cybersecurity. Google launched Google IT 
        Support Professional Certification under its Grow with Google 
        initiative through Coursera, offering a way for anyone from any 
        educational background to get a start in the IT field where the 
        average starting salary for IT support is $52,000 per year. The 
        Homeland Security Act of 2002 envisioned the creation of a 
        National Emergency Tech Guard program, a corps of volunteers 
        whose training is funded by the Government and who can be 
        deployed during periods of crisis to restore critical systems 
        and services to their communities. Policy makers should 
        support, fund, expand, and incentivize similar initiatives with 
        a mandate of driving diversity in the industry. This commitment 
        would not only help solve the industry's skills shortage, 
        bolster our resilience during times of crisis, but would help 
        address the ``digital divide'' of the haves and the have nots 
        in our society. As we look to the future we will have to 
        ultimately commit to completely rebuilding our digital 
        infrastructure, cities, and nations to face the digital and 
        social challenges of 2030 and beyond. Investment in building 
        the talent base in the right way to tackle this challenge is a 
        necessity for success.
    8. Judicious implementation of regulation.--Regulation must be 
        pursued in a focused and purposeful manner with a willingness 
        to adjust and adapt as we evolve, as technology evolves and as 
        our adversaries evolve. With those guiding principles, we 
        should enact regulation targeted at very specific areas where 
        we can have measurable impact.
        a. Setting minimum Security Standards for IOT is critical.--
            Congress should enact basic regulation with respect to IOT. 
            The U.S. Government can help protect the 5G ecosystem of 
            billions of connected devices by setting basic security 
            standards, requiring features such as auto update, and 
            importantly providing the right incentives, including tax 
            incentives for vendors to implement these standards and 
            corporations (including critical infrastructure) to deploy 
            secure products and the financial headroom and reason to 
            make changes.
        b. It is time to enact regulations on big data and social 
            platforms.--The aim is not to regulate ``Big Tech'' but 
            rather those technology platforms that facilitate 
            communications and propaganda networks, exploit human 
            weakness for profit, are addictive by design, reward 
            virality, not veracity, thereby enabling destructive and 
            chaotic social manipulation by our adversaries, without 
            providing clear benefits to their users that outweighs 
            these costs. These social platforms have demonstrated an 
            unwillingness to self-regulate or put the interests of 
            their consumers or society at large ahead of their profit 
            motivation. The scope of harm they have caused society 
            includes not only the amplification of polarization, but 
            also psychological harm as the amount of stress, anxiety, 
            and depression caused by their platforms is on the rise in 
            society and especially with our youth. They are out of 
            time.
                               conclusion
    All of the recommendations outlined above are intended to support 
empowering a society that is resilient to the unintended consequences 
of technology innovation and the inevitable exploitation and use of 
those technologies by adversaries to gain some form of advantage. This 
may only be a starting point of a long journey. If our ultimate goal is 
defending our Nation by defeating our adversaries in cyber space rather 
than accommodating them, then, in addition to establishing acceptable 
norms of behavior, developing and committing to a consistent policy of 
engagement, escalation and deterrence, we must have a working model for 
successful public-private collaboration and engagement. Defeating our 
adversaries presupposes our ability to harness the vast technical 
expertise and resources as well as the unique authorities of the 
Federal Government, the vast technical expertise and agility of the 
private sector, a collaborative intelligence gathering and sharing 
framework, and coordinated response planning. It presupposes a society 
where trust exists between the private sector and the public sector, 
where transparency and fact-based substantive conversation, discussion, 
and communication are the norm.
    We have a long way to go, time is not on our side, but we have not 
yet run out of time.

    Mr. Richmond. Thank you, Ms. Howe, for your testimony.
    I now recognize Dr. Buchanan to summarize his opening 
statement for 5 minutes. Thank you.

STATEMENT OF BEN BUCHANAN, PH D, SENIOR FACULTY FELLOW, CENTER 
FOR SECURITY AND EMERGING TECHNOLOGY, MORTARA CENTER, ASSISTANT 
           TEACHING PROFESSOR, GEORGETOWN UNIVERSITY

    Mr. Buchanan. Thank you, Chairman Richmond, Chairman 
Thompson, and Ranking Member Katko, for holding this important 
hearing and for inviting me to testify.
    My name is Ben Buchanan. I am an assistant teaching 
professor at the School of Foreign Service, and the senior 
faculty fellow at the Center for Security and Emerging 
Technology, both at Georgetown University. I am also a global 
fellow at the Woodrow Wilson Center for Scholars, where I teach 
introductory classes on artificial intelligence and 
cybersecurity for Congressional staff. My research specialty is 
examining how cybersecurity and AI shape international 
security. In this vein I co-authored recently a paper entitled, 
``Machine Learning for Policymakers.''
    I will confine my opening remarks to the impact of AI on 
cybersecurity, since I think it is the emerging technology 
poised to have the most significant effect in this area. While 
there is an enormous amount of hype and debate around AI in 
general, the intersection of AI and cybersecurity is 
understudied and underappreciated. At least 3 dimensions of 
this problem deserve our analysis.
    First and most significant is the cybersecurity of AI 
systems themselves. AI systems are just as likely to be 
susceptible to the kinds of software vulnerabilities that are 
present in other kinds of computer code. As we have seen for 
decades, hackers can exploit these vulnerabilities for their 
own ends. There is no reason to think that hackers will not try 
to do the same to AI systems, and there is no reason to think 
that they will not, at times, succeed. This possibility is 
particularly worrying, given the high stakes of some AI 
applications. This is not a reason to avoid using AI, but 
vigilance is imperative in order to improve cyber and National 
security.
    Yet to stop our analysis at just the traditional kinds of 
software vulnerabilities is to miss a great deal of the 
cybersecurity risk that AI systems pose. The neural network 
architecture that underpins a lot of modern AI is immensely 
powerful, but presents new classes of cybersecurity risk that 
we are only beginning to uncover and understand. We call this 
field adversarial learning.
    Using adversarial learning hackers can cause neural 
networks to make bizarre errors, causing systems that rely on 
those networks to fail or reveal confidential information. This 
is a field that requires a great deal more attention. A tiny 
fraction of the research in AI today goes to studying AI 
security and the risks of adversarial learning.
    Our second area of analysis is that AI can change 
traditional offensive cyber attacks against regular computer 
systems. Modern hackers in many cases do not need AI to achieve 
their ends. That said, I think it is noteworthy that some of 
the most potent cyber attacks we have seen, including last 
decade's Stuxnet, the 2006 black--2016 blackout in Ukraine, and 
the 2017 attack now is NotPetya, which caused $10 billion in 
damage, feature some forms of automation within them.
    I can imagine a world in which future cyber operations will 
use more sophisticated automated capabilities to achieve 
particular tasks such as vulnerability discovery, target 
selection, command and control, and attack execution. Mr. Knake 
mentioned the kill chain earlier, and suffice it to say that I 
think almost every aspect of the kill chain could be 
transformed by more powerful automated capabilities.
    I suspect that such automation could offer significant 
upsides to sophisticated hackers faced with complex targets and 
complex missions. In some respects, the possible upside to 
automation in attack is higher in the area of cyber operations 
than in physical warfare, since whether a plane is operated by 
a human or a machine, the laws of physics still apply. But it 
is likely that automated cyber capabilities, if sophisticated 
enough, could operate much faster than their human-directed 
counterparts. I stress, however, we have not seen this come to 
fruition yet.
    This leads to the third area of analysis, the possibility 
that AI might help on cyber defense. This idea is also the 
subject of a lot of hype and a lot of investment. There seems 
to be discreet ways in which AI can indeed help secure computer 
systems, both in discovering vulnerabilities before hackers do, 
and also in detecting the presence of malicious code.
    However, we must be careful not to let the hype outrun the 
reality on this front. In evaluating cybersecurity advances in 
this area, we should compare them to the baseline of 
technologies we already use, many of which already involve 
automation, and understand how, if at all, automation in our 
modern paradigm of machine learning actually improves our 
defenses. I do believe that AI-enabled tools are likely to be a 
fundamental part of modern and future cyber offense and 
defense. The scale, size, and speed of cyber operations will 
make this inevitable. It is imperative that we keep up with 
changing times.
    That said, we must not forget that cyber operations, no 
matter how sophisticated, are still fundamentally human 
operations. For as much as we will talk about technology today, 
we must remember that the people in our organizations, 
including Government, are key to addressing these threats.
    I look forward to your questions.
    [The prepared statement of Mr. Buchanan follows:]
                   Prepared Statement of Ben Buchanan
    Thank you, Chairman Richmond and Ranking Member Katko, for holding 
this important hearing and for inviting me to testify.
    My name is Ben Buchanan. I am an assistant teaching professor at 
the School of Foreign Service and a senior faculty fellow at the Center 
for Security and Emerging Technology, both at Georgetown University. I 
am also a global fellow at the Woodrow Wilson International Center for 
Scholars, where I teach introductory classes on artificial intelligence 
and cybersecurity for Congressional staff. My research specialty is 
examining how cybersecurity and AI shape international security.--I co-
authored a paper entitled ``Machine Learning for Policymakers.''\1\
---------------------------------------------------------------------------
    \1\ Buchanan, Ben and Taylor Miller. ``Machine Learning for 
Policymakers.'' Belfer Center for Science and International Affairs 
(2017), https://www.belfercenter.org/sites/default/files/files/
publication/MachineLearningforPolicymakers.pdf.
---------------------------------------------------------------------------
    I will confine my opening remarks to the impact of artificial 
intelligence on cybersecurity, since I think it is the emerging 
technology poised to have the most significant effect in this area. 
While there is an enormous amount of hype and debate around AI in 
general, the intersection of AI and cybersecurity is understudied and 
underappreciated.
    At least 3 dimensions of this problem deserve analysis:
    First and most significant is the cybersecurity of AI systems 
themselves. AI systems are just as likely to be susceptible to the 
kinds of software vulnerabilities that are present in other kinds of 
computer code. As we have seen for decades, hackers can exploit these 
vulnerabilities for their own ends. There is no reason to think that 
hackers will not try to do the same to AI systems, and there is no 
reason to think that they will not at times succeed. This possibility 
is particularly worrying given the high stakes of some AI applications; 
it is not a reason to avoid using AI, but vigilance is imperative to 
preserve cybersecurity.
    But to stop our analysis at just the traditional kinds of software 
vulnerabilities is to miss a great deal of the cybersecurity risk that 
AI systems pose. The neural network architecture that underpins a lot 
of modern AI is immensely powerful but presents a new class of 
cybersecurity risks that we are only beginning to uncover. We call this 
field adversarial learning.
    Using adversarial learning, hackers can cause neural networks to 
make bizarre errors, causing systems that rely on those networks to 
fail or to reveal confidential information. This is a field that 
requires a great deal more attention.
    Second, AI can also change traditional offensive cyber attacks 
against regular computer systems. Modern hackers in many cases do not 
need artificial intelligence to achieve their ends. That said, I think 
it is noteworthy that some of the most potent cyber attacks we have 
seen--including Stuxnet, the 2016 blackout in Ukraine, and the 2017 
attack known as NotPetya that caused at least $10 billion in damage--
feature some forms of automated propagation and attack capability. I 
can imagine a world in which future cyber operations will use more 
sophisticated automated capabilities to achieve particular tasks, such 
as vulnerability discovery, target selection, command and control, and 
attack execution.
    I suspect that such automation could offer significant upsides to 
sophisticated hackers faced with complex targets. In some respects, the 
possible upside to automation is higher in this area than in physical 
warfare; whether a plane is operated by a person or a human, the laws 
of physics still apply, but it is likely that automated cyber 
capabilities--if sophisticated enough--could operate much faster than 
their human-directed counterparts. I stress, however, that we have not 
seen this come to fruition yet.
    This leads to the third area of analysis: The possibility that AI 
might help on cyber defense. This idea is also the subject of a lot of 
hype and a lot of venture capital investment. There seem to be discrete 
ways in which AI can indeed help secure computer systems, both in 
discovering vulnerabilities before hackers do and also in detecting the 
presence of malicious code. However, we must be careful not to let the 
hype outrun the reality on this front. In evaluating cybersecurity 
advances in this area, we should be careful to compare them to the 
baseline of technologies we already use--many of which already involve 
automation--and understand how, if at all, artificial intelligence 
improves our defenses.
    I do believe that AI-enabled tools are likely to be a fundamental 
part of modern and future cyber defense; the scale, size, and speed of 
cyber operations will make this inevitable, and it is imperative that 
we develop these tools. That said, we must not forget that cyber 
operations, no matter how sophisticated, are still fundamentally human 
operations. For as much as we will talk about technology today, we must 
remember that the people in our organizations are key to addressing 
these threats.
    I look forward to your questions.

    Mr. Richmond. Thank you. Thank you for your testimony. I 
will now recognize myself for 5 minutes to ask questions.
    Let me just start with some of the things that you all 
talked about. Mr. Knake, you mentioned that there are examples 
where governments set the objectives or goals. Can you give me 
some of those, and your train of thought on how governments 
should do it, or what the goals should be?
    Mr. Knake. Yes, Mr. Chairman. The analogy that I like to 
use in this space is how we handle oil spills.
    We all remember the Exxon Valdez oil spill in 1989. In 
1990, Congress passed bipartisan legislation, the Oil Pollution 
Act. What that act said was that, if you are going to bring oil 
into U.S. waters, you need to have insurance that would cover 
the full cost of cleaning up a loss of containment from that 
vessel. So the important thing that that act did is, it didn't 
say, ``Here are the requirements for safety of your vessels, 
here is what you must do,'' it said you will own the cost. The 
polluter will pay.
    Well, I think we can adapt that model very easily to areas 
like data spills. Treat data spills like oil spills. If you 
want to hold 140 million records of U.S. citizen data, then you 
probably should have to have an insurance bond that would pay 
out on the order of--back of the envelope math would suggest 
about a $1,000 per record. That would require the insurance 
industry to be able to measure risk in a way that they cannot 
measure today, and to measure security in a way they cannot 
measure today.
    But I am quite confident that, from that point on, markets 
would be able to adopt new strategies to be able to price that 
risk and enforce it, so they wouldn't have to pay out that kind 
of insurance payment.
    Mr. Richmond. Part of my thinking--and you mentioned 
Atlanta in your testimony, and other places--part of my 
concern--and I will pick a fictional place so that I don't 
offend any community, but let's think of Mayberry, North 
Carolina, where Barney Fife was the sheriff's deputy.
    [Laughter.]
    Mr. Richmond. It is made up.
    So how do we ensure that they are up with the times in 
terms of protecting their data, and their cyber hygiene, and 
all of those things? How do we get them to where they need to 
be?
    Mr. Knake. This is a very unpopular opinion, Mr. Chairman. 
The first thing I would do is I would ban ransomware payments.
    What we are doing at this point is handing hundreds of 
millions of dollars over to our adversaries. They are taking 
that money. They are spending some of it on Lamborghinis and 
leather jackets. The rest of the money they are reinvesting to 
up their capabilities. They are growing more sophisticated. 
They are building larger teams. They started out doing 
ransomware against individuals. They are now doing hospital 
systems and local governments. It is only a matter of time 
before they do the power grid. So from that perspective, we 
have got to stop funding them.
    Mr. Richmond. Let me stop asking you questions.
    [Laughter.]
    Mr. Richmond. Ms. Howe, you mentioned autonomous weapons. 
What is out there when you speak of that?
    Ms. Howe. Today the technology exists to have completely 
autonomous weapons. They are available, both for the military 
and also for private use, where you can set up sniper rifles to 
take down targets from great distances with very little human 
intervention. That exists out there, and when they are 
networked it creates an interesting dilemma, from a security 
perspective.
    Mr. Richmond. Thank you. Mr. Durbin, you mentioned stalker 
apps, or stalker--tell me how they--how it will get on a 
Member's phone or one of the panelists' phone.
    Mr. Durbin. Stalkerware is considered malicious software. 
Like most threats and malicious software packages, there are--
there is no difference in how they would end up on a device.
    So, like a phishing exercise, where you get an email and 
you are asked to click on a link that could execute a program 
to load it in, or even--you could do it via text. If since 
stalkerware in--sometimes involves somebody that the stalker 
knows, if they have physical access to the phone, then they 
would be able to, obviously, grab it and loaded it on. So it is 
like typical threats. You can be tricked into having that, the 
software load.
    Mr. Richmond. OK. I would imagine that you all sell 
software to detect it.
    Mr. Durbin. Yes, we do.
    Mr. Richmond. OK. With that I will recognize the Ranking 
Member of the subcommittee, Mr. Katko, for 5 minutes.
    Mr. Katko. Thank you, Mr. Chairman. Ms. Howe, during your 
testimony--well, all of you talked about the various threats 
that are out there, and I really, truly believe we are 
constantly playing catch-up, and that is a concern.
    But Ms. Howe, you mentioned that we need to study--we, 
being the Government--need to set a bold cyber agenda. Could 
you just drill down a little more and tell me what you envision 
would be good for us to do?
    Ms. Howe. Well, certainly, sir. Thank you for the question.
    From the outset, I think the Government--there are things 
only the Government can do that would have a tremendous impact 
on the threat landscape.
    Having a consistent cyber deterrence policy that imposes 
costs on the adversary is a great starting point. It is unfair 
to expect companies to be able to defend themselves against 
nation-state adversaries who are committed. We have done that 
in the past. We certainly wouldn't do that in the kinetic 
world, but we are doing that in the cyber world, where we 
expect companies to defend themselves.
    We also have to--some of the authorities that were written 
for defending our most critical systems were written before 
there was a commercial internet. As we take a holistic look and 
see what is happening in the dynamics of the market, we have to 
be willing to re-examine how we operate as a Government, the 
authorities and capabilities mismatch that we all talk about, 
and how we organize and how we collaborate at cyber speed.
    Mr. Katko. All right, thank you very much.
    Mr. Buchanan. You talked about a human element factor. You 
know, one common theme that I believe in is that, with emerging 
technologies and threats the way they are, the human element 
remains critical to the functionality of the attacks. So how do 
we make the human element of attacks less effective with 
emergent technologies? Or can we?
    Mr. Buchanan. Well, I think, again, as much as we talk 
about technology, it is important to recognize that, both on 
offense and defense, there are humans involved. One of the 
things I worry about quite a bit, as someone who teaches 
students who often go into Government, is the capacity to 
educate future policy makers and policy advisers to have 
Government-hiring authorities to bring people into Government 
so they can serve in this mission set on offense and on 
defense.
    As you can imagine, relating to compensation and other 
factors, often times many of these individuals go to the 
private sector and don't end up in Government working on these 
important missions.
    Mr. Katko. Thank you. Here is a question for everyone here.
    Mr. Durbin, we can start with you. It is about quantum 
computing. In my home town, Syracuse, New York, they have a 
robust quantum computing research operation under way. But it 
is, of course, not the only one in the country. I am vitally 
concerned about quantum computing in that--one of you said that 
if China gets it, basically, we are in big trouble. It should 
be something that we prioritize better than we are right now.
    I just want to, should we--just--it is a softball question, 
but it is--I want to hear what your answers are.
    Should we be making more of a concerted effort to develop 
our quantum capabilities on the Government level, given how 
much of an advantage fully-functional quantum computing can 
provide?
    Mr. Durbin. Yes, it is a serious threat. It is coming. The 
time frames are very debatable, but the time to come up with 
defenses are now, not when somebody does have the first 
functional working quantum computer.
    The algorithms that are used right--or the encryption 
rhythms for protecting data right now will not be sufficient 
with quantum, so we need to come up with the new problem that 
is hard for a quantum computer to solve.
    I am encouraged with the attention that NIST has been 
giving this topic, and so I encourage them to keep going with 
the research that they are doing.
    But yes, it is coming, and focus needs to be brought to 
bear.
    Mr. Katko. Yes, it seems to me that there is a bit--it is a 
bit diffused, the projects, and there is not, like, a 
centralization, if you will, of the--their overall goal. I 
mean, I view this as a modern-day moonshot, because if we--if 
the Chinese get it before us, then we really--our encryption 
data is--or our encryption capabilities are going to be 
severely hampered. We are already vulnerable, as it is.
    So Mr.--as you say, Knake--is that how you say it, or 
Knake? Yes. Well, what can we do, as a Government, from a 
prioritization standpoint?
    To me, it seems to me that we need to do more to make this 
a high priority within Government. It is not something that 
people can see and feel like the moonshot, if you will. But it 
is something that is critically important to us, going forward. 
How do we get the Government to prioritize this more?
    Mr. Knake. So I think the way that I would approach this 
problem is to say that we need to focus on it with the same 
energy and, really, the same level of resources as we would 
maybe a Manhattan project or a moonshot, but we need to harness 
the capabilities within our private sector. So instead of 
having one large Manhattan Project out in the Southwest desert, 
in this case we need to have dozens, if not hundreds, of 
companies working on various aspects of it. There are models 
for how we have done this in the past. I would call on SpaceX 
as a good example of a commercial-supported endeavor.
    But I think the key here is more research going to more 
teams to compete globally, and hope that one of those teams 
that is going to win is going to be a U.S.-based team. I think 
we can't really put all our eggs either in the hope that 
Silicon Valley is going to solve this problem for us, or that a 
Government research team singly funded and focused is going to 
beat the Chinese, who I view as the major adversary in this 
space.
    Mr. Katko. Thank you all. I wish I had more time to ask you 
a ton of questions, but I have to--I am out of time. I yield 
back.
    Mr. Richmond. The gentleman yields back. The Chairman of 
the full committee, Mr. Thompson, is recognized for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Richmond. As I heard 
the witnesses' testimony today, I became very suspect of 
something I can't do without. But the challenge for this 
committee and Members of Congress is how do we not overreact to 
a problem, so that Government, all of a sudden, is stifling 
innovation and a lot of other things with regulation.
    So--and one of the reasons hearings like this are held is 
to try to get the benefit of the talent that is out here, 
especially in the private sector. Some of us believe that there 
is a role for Government, but it is to encourage the 
development of the technologies and things that we need, while 
understanding that it is really the private sector and its 
talents that ultimately will get us to where we need to be.
    So--but a couple of things I heard. One is right now we are 
kind-of reacting to the problem, rather than getting ahead of 
it. Can you suggest a way forward for us to wait until the next 
attack occurs, in anticipation of whatever that is, that we 
could do, as Members of Congress, to get us to that point?
    Mr. Durbin, if you can, get us started with some idea.
    Mr. Durbin. It is tempting to react to the buzz word, what 
people are talking about in the press, like the deepfakes. I 
encourage that we also have to keep our eye on the threats that 
have been plaguing us for a long time.
    Email, for example, still tends to be the No. 1 threat 
vector out there that attackers use to do their malicious 
things. As soon as a bad guy figures out a way to utilize 
email, then companies like ourselves, we counter it. Then they 
come up with a new clever way. So we can always be prepared for 
what is coming by focusing on what is tried and true, and what 
we know that the adversaries aren't going to back away from.
    Ransomware. Today I talked about targeted ransomware. This 
is the first time since we have been tracking it where the 
shift has moved to the enterprise versus the individual. Why 
are they doing that? They are doing that because, when you 
target somebody and you really understand their network, you 
can get in there, get in there deep, compromise as many assets 
as possible, launch it at the same time, and it puts pressure 
on that company: ``We better pay the ransom, because we are 
tied up.''
    So solving ransomware will help you to solve the next 
iteration, the next usage of it, and it is a way to kind-of 
stay ahead of the curve.
    Mr. Thompson. Mr. Knake.
    Mr. Knake. Thank you, Mr. Chairman. I would focus on 3 
brief ideas.
    No. 1, I think we need to have a much higher degree of 
disclosure of cyber incidents. We really don't have a clear 
picture of how badly we are owned by Chinese or Russian or 
other adversaries. Companies tend to try and avoid disclosing 
publicly what has happened. So, on the one hand, we have the 
number that General Alexander has put out, which I believe to 
be accurate, of possibly as high as $400 billion in loss from 
economic espionage by the Chinese, but we have very few cases 
where we actually know of public incidents where that loss has 
happened. That puts investors at a disadvantage, it puts 
stakeholders at a disadvantage, and it keeps markets from 
inflicting pain on companies that don't have good security.
    With that, I would highly recommend the idea of creating 
one or more National Transportation Safety Board-like 
mechanisms to dig in and understand why these incidents happen 
once they are disclosed, so those lessons learned can get 
pushed out to the broader ecosystem.
    Finally, I think this is all about creating collaboration, 
defensive collaboration with Government and with the private 
sector. Today we don't have the system that we need to be able 
to do that to trust the end-users and to trust the systems over 
which information is shared. So that is why I have advocated 
for extending Classified connectivity out to critical 
infrastructure companies beyond the defense industrial base. I 
think that is essential.
    Mr. Thompson. Thank you.
    Ms. Howe.
    Ms. Howe. Chairman Thompson, you are exactly right that the 
attack surface is ever-shifting, the landscape moves on us, and 
the most important thing we can do is put in place a 
collaborative process that can be as agile as the threat 
landscape and as our adversaries are.
    We have had great examples of this. The Russia Small Group, 
which was--had a very specific goal of protecting the 2018 
midterm elections, did their job. They did it. It was Cyber 
Command, NSA, FBI, DHS, working together with private sector. 
The Enduring Security framework was another example of this 
collaboration working.
    If we could systematize that kind of collaboration so that, 
no matter how our adversary adapts, no matter how our 
technology evolves, we can be as agile as they are--I don't 
think we can predict with precision how these attacks will take 
place in the future, but if we organize the right way, we can 
make a difference.
    The other thing I would put out there is today we want to 
have resilience and protect ourselves. The boldest thing we can 
do is to decide to defeat the adversary in cyber space, and to 
organize to actually defeat the adversary. That is something we 
are absolutely capable of doing. It takes a lot of resolve to 
do. But again, working society, Government, hand-in-hand with 
trust between the two, we can accomplish that.
    Mr. Thompson. Dr. Buchanan.
    Mr. Buchanan. Just in terms of concrete ideas, I think we 
need to do a lot more study of the cybersecurity 
vulnerabilities of emerging systems, ideally, before we employ 
them. This is something we, in many cases, did not do with old 
cyber systems. The good news, I think, is that the Government 
does have some capacity to do this that we could use as a 
foundation. I am thinking in particular of NIST, National 
Institute of Standards and Technology, which has very small 
effort, but a promising one, to study weaknesses in artificial 
intelligence systems.
    It seems to me that would be something that is ripe for 
expansion, where we could study the problems that many in the 
private sector, because of market interests, are not studying, 
but that will be quite impactful for broader society if they 
were to be targeted by adversaries.
    Mr. Thompson. Thank you very much. I ask the Chair--I have 
some follow-up questions we will submit to the witnesses in 
writing along this line. But I thank you very much.
    Mr. Richmond. The gentleman yields back. The gentleman from 
North Carolina, Mr. Walker, is recognized for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Dr. Buchanan, I would like to stay with you, if I could, 
please. In August, President Trump announced a rule restricting 
Government agencies from doing business with the Chinese 
telecommunications company Huawei due to National security 
threats. What was our exposure to Huawei when the decision was 
reached?
    Mr. Buchanan. Congressman, I don't know that I am in a 
position to judge U.S. Government's exposure to Huawei.
    I would imagine that what would concern me most would be 
exposure in Classified networks, and I am in no position to 
have visibility into that.
    Mr. Walker. So you don't necessarily have anything that is 
confirmed, but you do have some concerns. Is that fair to say, 
without having to get into detail?
    Mr. Buchanan. Sure. I think it is fair to say that 
telecommunications systems provide enormous access to the 
information and broader networks of which they are a part. In 
general, I worry about that as a significant threat, and----
    Mr. Walker. Yes. Not everybody on the panel--technology 
still is an issue for, I am realizing, but that is a different 
story.
    [Laughter.]
    Mr. Walker. What has changed in the agency's contract 
acquisition since the ban, such as the type of contract signed, 
or how contractors are chosen?
    Mr. Buchanan. Again, I am not sure I have visibility into 
the contracting processes.
    Mr. Walker. OK, all right. So maybe my final question for 
you, then, may be the same thing. Are there alternatives to the 
covered ban telecom companies such as Huawei routers and other 
companies' data networks, or have agencies been struggling to 
fill their tasks because of the ban? Can you address that?
    Mr. Buchanan. Yes. Speaking generally, there is--there are 
other players in the telecommunications market. I think it is a 
smaller market than we would like. Huawei has a price 
advantage, why they are attractive, but they are not the only 
supplier in the world.
    Mr. Walker. OK. Do you see that changing in the foreseeable 
future, as far as these smaller companies having a little bit 
more access, or a little bit more stronger foothold?
    Mr. Buchanan. I think it is fair to say that I worry 
generally about competition in this space, because there are 
not that many players.
    Mr. Walker. OK.
    Mr. Buchanan. Yes. So, in general, I think there is reason 
why we would want more competition than we have right now, and 
particularly we might want more U.S. companies involved than is 
currently the case.
    Mr. Walker. Thanks. I appreciate you going there.
    Mr.--I believe it is Knake, is that correct? In your 
testimony you mentioned that in a race--and this struck me a 
little bit--in a race between Silicon Valley and China, I 
believe you said Silicon Valley would lose in respect to these 
emerging technologies. Is that correct? I am going to come back 
with a question. I just want to make sure I heard that correct. 
Right? Is that fair?
    Mr. Knake. Yes, I think it is fair.
    Mr. Walker. All right. There is no question that Huawei, in 
circumventing--is circumventing the U.S. export ban and 
experiencing success in becoming self-sufficient.
    So my question is this. If China becomes totally self-
reliant in these technologies, such as the production of their 
own advanced chips, what impact do you think that is going to 
have on the U.S. economy 5, 10, 50 years down the road?
    Mr. Knake. So I am in a minority within the international 
relations community on this topic. But what I think is going to 
happen is we are largely going to see a split of the internet 
into 1, 2, or 3 parts, and with it a split of the underlying 
technologies, so that we are unlikely to see a situation 
barring massive political change in China, in which U.S. 
companies are able to compete there for that market.
    Therefore, I don't think we are going to continue to allow 
China to compete in our market. So I think we are going to have 
very different technology development and very different paths.
    Mr. Walker. Well, you just--you answered the second 
question, as far as, if there have--if they have the largest 
R&D funding in the sector, how would we expect companies in the 
United States to compete with the Chinese government-backed 
company from dominating the telecom market? You just answered 
that. It looks like it is going to be two independent sectors 
here.
    Mr. Knake. Yes, sir. I would say that I think that there is 
a--it is almost a dirty word within policy communities in 
Washington, but it is time that we re-look at the concept of 
industrial policy.
    How are we going to assure that 6G, however we decide to 
define that, is something that the United States can compete 
in, and isn't going to fall behind these other actors?
    Choices were made by leading telecommunications firms in 
the United States not to compete in this space. That clearly 
was not in our National security interest. So we have got to 
find ways to make sure they choose to compete in the next 
generation.
    Mr. Walker. A lot of my questions, a lot of the focus in 
the media and National security is on Huawei, but there are 
other companies that should cause major concern, as well, for 
the U.S. National security. Do you agree with that?
    Mr. Knake. Absolutely.
    Mr. Walker. Especially in the emerging technologies.
    In my closing few seconds, what should be done, in your 
opinion, to prevent these companies from posing a security 
risk, specifically, obviously, in our country?
    Mr. Knake. So I think one of the things that we need to 
look at, which is, again, a very unpopular opinion, is can we 
maintain global supply chains, or do we need to have trusted 
supply chains by trusting companies that are either 
manufactured in the United States or by our allies?
    Can we trust chips and devices and components that are 
manufactured abroad for critical systems?
    Mr. Walker. Thank you for your testimony. I yield back, Mr. 
Chairman.
    Mr. Richmond. The gentleman from North Carolina yields 
back. The gentleman from Rhode Island, Mr. Langevin, is 
recognized for 5 minutes.
    Mr. Langevin. Thank you.
    [Pause.]
    Mr. Langevin. Is that better? OK. Here we go.
    I just want to thank our panel of witnesses for your 
testimony today, and your contributions to raising our National 
security awareness, and providing steps forward to how we 
better protect the country in cyber.
    Mr. Knake, I would--first of all, I am not going to get 
into this question, but on the issue of--be able to discuss 
industrial policy, I couldn't agree with you more. We need to 
make sure that we can do that, and take the politics out of it, 
and really focus on the issue at hand. So I agree on that 
point.
    So this is a question, and it actually--one other point I 
want to make is how I completely would agree with you on what 
you talked about in terms of critical thinking. You know, this 
issue of our adversaries using our values and our commitment of 
free speech and using these social media platforms as weapons 
against us and undermining our democracy is something that I 
have worried about for a long time.
    Being able to think critically when you talk about media 
and issues that are raised, if the public can't do that, we are 
already losing. We need to build that resilience into our 
democracy, and that starts with our kids, and teaching civics 
in class, and also doing things like critical thinking.
    But this question is for all witnesses, and I would like to 
start with Mr. Knake. In your collective testimony you all 
focused on--significant attention on new tactics and techniques 
to achieve malign cyber goals. You do not, though, to a large 
extent focus on threat actors.
    So do you believe that the cyber threat actor environment 
is likely to remain largely static in the coming years, with 
major challenges coming from China, Russia, North Korea, and 
Iran, and lesser problems from organized crime and other non-
state actors? Or are we likely to see major shifts?
    Mr. Knake. Thank you, Congressman. I would say that, from a 
nation-state perspective, the threats are largely determined by 
the geopolitics and the ability for any nation-state to rapidly 
acquire offensive cyber capability. It means that any of our 
adversaries are likely to confront us in cyber space if they 
deem it in their interests.
    You touched on organized crime. I think we are at the point 
where organized crime in cyber space really represents a 
danger, and a National security danger, a National security 
threat. The capabilities are only growing. Their interests in 
generating financial revenue are moving them out of purely the 
cyber realm and into the physical realm. So we have hybrid 
threats emerging from these criminal groups. They are operating 
out of safe havens. I think that they are, like the drug 
cartels in the 1990's, ever much a National security threat as 
certain nation-states.
    Mr. Langevin. How about in terms of mitigating our risk? 
How much would you focus on responding to threat actors vice 
(sic) technological steps that we can take to protect ourselves 
from emerging threats?
    Mr. Knake. What I have advocated is that there is a limited 
amount we can do to threat actors.
    I certainly agree with Ms. Howe that we want to engage them 
everywhere we can and in every way that we can. But really, our 
National strategy needs to be about building resilience. We 
need to be able to have most attacks bounce off of our 
infrastructure, and we need to be able to bounce back rapidly, 
should those protections fail. That kind of strategy, I think, 
is really in our National interest. That is where we want to 
focus on incentives and aligning technology around those 
incentives.
    Mr. Langevin. Thank you, Mr. Durbin, in your written 
testimony you make reference to something that we have been 
focusing a great deal on right now, and that is risk posed to 
ever-expanding supply chains, and the various accesses that 
they provide to networks. Can you expound upon the growth that 
you have seen in this type of threat?
    To our other witnesses, do you believe that intrusions 
through the supply chain will continue to rise in the future?
    Given that malicious actors often use software update 
mechanisms when attacking through supply chain, are you 
concerned that an uptick in supply chain attacks could actually 
undermine faith in this important hygiene measure?
    Mr. Durbin. So the supply chain is attractive because, if 
your main target has a sufficient enough cybersecurity budget, 
and has taken the--done the due diligence to protect 
themselves, instead of spending your resources trying to 
penetrate them, let's go down the supply chain and look for 
someone who is less diligent, attack there, and try to feed the 
attack back upstream into the main target. So that is always 
going to be an attractive vector that we are going to have to 
stay diligent with.
    I think the--using the supply chain and compromising 
software download sites and software patching sites is also 
going to be very attractive, because you are able to reach a 
large number of people, and you are doing it in a way where the 
victim thinks that they are interacting with a trusted site. So 
you are not going to be as cognizant, or you are not could be 
as concerned or suspicious. So it can be a very powerful threat 
vector.
    Mr. Langevin. Thank you. I know my time has expired. Thank 
you, Mr. Chairman. I yield back.
    Mr. Richmond. The gentleman from Rhode Island yields back. 
The gentleman, Mr. Taylor, is recognized for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman. I appreciate this 
hearing.
    In 2017 I carried the cybersecurity package for the State 
of Texas, for the Texas legislature. In that package the 
attorney general of Texas asked for a limited defense of 
prosecution in the event that he wanted to take down a human 
trafficking website. So he would take down a human trafficking 
gang. The website with the victims' pictures would still be 
left on the internet. He wanted the ability to conduct a 
denial-of-service attack against that site to take it down and 
to eliminate that site on the internet.
    So that takes me to my question, my line of questioning, 
which is around offensive operations against cyber predators. 
Right?
    So we have got people out there that are conducting cyber 
attacks in the United States, whether it is denial-of-service, 
whether it is ransomware, et cetera. This is thorny legal 
ground.
    But I was just wondering, since we have some really smart 
people in the room, what are your thoughts on conducting 
offensive operations against those that are actually conducting 
attacks on us when--retaliating, in effect, doing a ransomware 
attack on people that are doing ransomware attacks on us? I 
will let you go in order.
    Mr. Durbin, do you want to----
    Mr. Durbin. So there are a few issues.
    First is attribution. The attacker can hide who they really 
are. So it may appear as that they are coming from a hospital 
overseas, and then you are going to go attack this hospital 
that was innocent. If you do identify the correct attacker, and 
you attack them, you risk escalation, because they may come 
back at us again.
    But I think one thing that we often overlook, traditional 
warfare, if you throw a hand grenade at somebody, it blows up. 
They can't pick it up and throw it back at you. If we launch an 
attack, we are basically giving them that software that they 
can re-engineer and use against us, or use against others.
    I think there is a way to use a deterrence, maybe the 
threat of it, or to demonstrate what we could do. But I think 
hack attacks, or attack-backs are delicate.
    Mr. Taylor. Mr. Knake.
    Mr. Knake. Thank you, Congressman. I would say that I am 
all in favor of Cyber Command taking a more active role in 
defense of private industry and State and local government. I 
think that the idea of other entities than Cyber Command 
carrying out that offensive operation is scary and could put us 
into situations that we don't want to be in.
    But I do think, if we had the kind of capability where, for 
instance, a critical infrastructure company that was involved 
in a threat from a overseas actor was able to communicate that 
in real time with high assurance, with trust among the parties 
over a Classified network, that then Cyber Command could 
essentially be tipped off to that activity and target to shut 
it down.
    So we really just need tighter collaboration, rather than 
kind-of a go-it-alone approach by private companies. I think 
that is possible.
    Mr. Taylor. While I have got you, just one quick thing. You 
said you want to see greater clarity in cyber attacks. The 
problem that we have grappled with on this subcommittee is 
that, if we tell people where the attacks are, or what the 
effect--we are basically saying, hey, there is a vulnerability 
here.
    So, I mean, I appreciate the desire for transparency. I am 
for that. But then--but in this particular instance, if I give 
you transparency, I am basically telling you where you can 
attack me.
    Do you want to just quickly respond on that, and I will go 
back to the offensive question here with Ms. Howe?
    Mr. Knake. Yes, I think there is two pieces to it. I think, 
No. 1, the adversary has already exploited the vulnerability if 
they have created the incident. So, from that point of view, 
you are not going to be sharing information, assuming that you 
have patched that specific vulnerability and built protections 
around that specific threat. So I think that that can be 
addressed.
    I also think that, if we can build the kind of 
collaborative defense that we have been talking about, and the 
trust between partners, you don't necessarily need to share 
that information publicly or with the world. That disclosure 
could be made with partner, private-sector companies, and 
agencies.
    Mr. Taylor. Ms. Howe, going back to the offensive 
question----
    Ms. Howe. I often tell my children I have escalation 
dominance so they should never take me on.
    [Laughter.]
    Ms. Howe. I think, when it comes to offensive cyber 
operations, you have to make sure you have escalation 
dominance, which means it is only the purview of the U.S. 
Government to conduct offensive cyber activity.
    I agree with Mr. Knake, that we have seen Cyber Command do 
that effectively. We need to have a very consistent policy of 
engagement if we are going to engage in offensive cyber. If we 
do, it essentially becomes part of the cyber deterrence policy.
    When it comes to attribution, I would say our Government is 
the best in the world at attribution. We haven't gotten it 
wrong. In fact, even last week, the NSA put out an advisory 
showing that the Russians were using Iranian tools and 
infrastructure, and hiding as Iranians when they were 
conducting their attacks.
    So this is one place where the U.S. Government is 
fantastic, knows what it is doing, and we have got the 
capabilities to launch offensive cyber the right way.
    We have to have the policies, and we need to be able to 
communicate them. I do not think this is something the private 
sector should do.
    Mr. Taylor. All right. I see my time has expired. Thank 
you, Mr. Chairman. I yield back.
    Mr. Richmond. The gentleman from Texas has yielded. I now 
recognize the gentlewoman from Illinois, Ms. Underwood.
    Ms. Underwood. Thank you, Chairman Richmond. Last week 
Members of this committee traveled to my district, the Illinois 
14th district, to hold a hearing examining what steps the State 
of Illinois has taken, in coordination with the Federal 
Government, to prepare for the 2020 election.
    In Illinois foreign adversaries were able to exploit a 
vulnerability in our State's voter database to access the 
records of 76,000 Illinoisans. Since then Illinois has used 
Federal and State dollars to increase its cybersecurity posture 
by executing the Cyber Navigator Program. This model continues 
to be a valuable tool for election officials around the State 
who now have access to a sure internet system, and highly-
trained cybersecurity personnel.
    We know that social media is an important source of 
information in communities like mine. A majority of Americans 
check social media at least once daily. So, Mr. Durbin, what 
advice can you offer to social media users about how to 
recognize the difference between a post from our neighbor and a 
post from a bot campaign?
    Mr. Durbin. That is a challenging ask. The people that are 
coming up with these posts, that are trying to deceive you, 
they are very good at them.
    So I think the platforms themselves are going to have to be 
involved in looking at the metadata of where these posts are 
coming from to help identify is this really a person, or is 
this a bot. But if it is not from somebody that you--you don't 
know, or that you are just hearing from, and it is on something 
that is topical, that could be--or topical to the election, 
that would be a flag for me.
    Ms. Underwood. What we often see is that, you know, people 
are in groups, and that they don't--they are not friends with 
the people in the group. So it just pops up on their feed.
    So if I am a mom in the 14th, what should I be looking for? 
Right? Because I don't have access to that metadata.
    Mr. Durbin. Again, I think if it is from someone that you 
don't know, and it seems awfully topical, it is a pretty good 
coincidence that around this election we are--which is--this is 
a hot topic for us--I am getting some--a social post from 
somebody I don't know, that would be, certainly, a red flag for 
me.
    Ms. Underwood. OK. But if they--``they,'' being the social 
media users--want to report a potential bot campaign, do social 
media companies currently have a timely and effective way for 
people to do that?
    Mr. Durbin. I don't know for sure what processes the social 
media companies have in place.
    Ms. Underwood. Anybody else can--can anybody else answer 
that?
    Mr. Durbin. I will speak from personal experience. The only 
way I was able to report a fake LinkedIn profile that had 
connected with me was to tweet at LinkedIn. That was the only 
way they responded. They did not respond to the abuse report I 
filed.
    Ms. Underwood. Interesting.
    Following the 2016 election, Symantec conducted extensive 
research on the use of Twitter bot campaigns to promote 
disinformation leading up to and during the 2016 election. Mr. 
Durbin, can you share any lessons or key findings from that 
research as we prepare for the 2020 election?
    Mr. Durbin. It was very well-planned. There is this 
impression that it was a bunch of trolls out there that were 
behind this. We found that not to be the case.
    They took their time in planning. They set accounts up 
months before they started using them. They were set up so 
that--it was kind of a main group that was responsible for the 
key content. Then there was a much larger group of the bots 
that were designed to get that fake messaging out. It was very 
effective with this kind of generate and amplify.
    The response to one of the accounts, which was in my 
testimony, only 10,000 tweets, but was retweeted over 6 million 
times. That is a clear indicator that that those 6 million were 
not bots. Those were actual people that were choosing to read a 
message that was generated from a fake account----
    Ms. Underwood. Right.
    Mr. Durbin [continuing]. Believe it, and then re-tweet it 
out to other people.
    Ms. Underwood. Right. For years now, social media companies 
have been on record saying that they are working to combat the 
use of their platforms to spread disinformation, specifically 
during election times. But new reports emerge every day. Just 
yesterday we heard about 4 new disinformation campaigns backed 
by foreign states on Facebook.
    Do you believe that these companies are prepared today for 
the 2020 elections, Mr. Durbin?
    Mr. Durbin. They claim that they are. I believe that they 
have the tools and the resources inside that they--they could 
take action. Whether or not they are, I am not an expert, I am 
not inside those organizations.
    Ms. Underwood. OK. Thank you.
    We have done a lot to secure our elections, but there is a 
lot of work that needs to be done to secure our Nation's 
election infrastructure. As technology continues to advance, so 
must our resources and policies to combat foreign adversaries 
who would seek to exploit new technologies to do us harm. 
Moving forward, this is going to take a whole-of-Government 
approach to preserve the integrity of our democratic 
institutions.
    I look forward to working with all my colleagues on this 
committee and the House to address election security from all 
angles. I yield back.
    Mr. Richmond. The gentlelady from Illinois yields back.
    I want to thank the witnesses for their valuable testimony, 
and the Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
